<html>
<title> - REVIEW PREVIOUS FISCAL YEAR AND LOOK AHEAD TO THE UPCOMING YEAR</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                    REVIEW PREVIOUS FISCAL YEAR 

                   AND LOOK AHEAD TO THE UPCOMING 

                          YEAR -- HEARING II

Thursday, September 21, 2006
House of Representatives
Committee on Veterans' Affairs
Washington, D.C.



  The Committee met, pursuant to call, at 10:37 a.m., in Room 334, 
Cannon House Office Building, Hon. Steve Buyer [Chairman of the 
Committee] presiding.
  Present:  Representatives Buyer, Bilirakis, Brown of South Carolina, 
Boozman, Filner, Snyder, Michaud, Hooley, Berkley, Udall, Salazar.
  The  Chairman.   Good morning.  The full Veterans' Affairs Committee 
will come to order September 21, 2006.
  I would like to welcome everyone, especially the new Commanders here 
today who are beginning a well-earned opportunity after many years of 
faithfully serving veterans within your organizations.  I look forward 
to a constructive and positive year ahead.
  Last November, after meeting with many of you at Carlisle Barracks 
just north of Gettysburg Battlefield, I announced a decision to enhance 
the way the Committee develops its budget views and estimates.
  The decision was to reform the way we gather the views of veterans 
service organizations and military service organizations, and your 
members have very valuable insights and deserve consideration.
  For years, I saw how the process of hearings were held and much of the 
testimony was received after the Committee did its views and estimates.  
It effectively had silenced the voice of many of the VSOs and MSOs 
because their testimonies would come so late, they then became a critic 
after the fact.  The status quo in my opinion was not working for 
veterans and the process has been changed.
  Last February, before we developed the fiscal year 2007 views and 
estimates, the Committee heard from 19 VSOs and MSOs, some of whom had 
never been heard from before.  This was very powerful.  It represented a 
significant increase in access to this Committee at a key point in the 
budget process.
  When I discussed accelerating these budget and legislative hearings in 
February, I also said that we wanted to meet again in September to 
review the fiscal just ending and look forward to the next then fiscal 
year.
  Yesterday we held the first of these hearings at which eleven VSOs and 
MSO commanders and leaders testified.  Their comments were substantive 
and the session was very productive.  And I anticipate the same here 
today.  You are helping, as Mr. Filner said yesterday, to set an agenda, 
so it is the meshing of our priorities.
  These September hearings are timely because the Administration is now 
also beginning to develop its budget request for next year.
  As I did yesterday, I would like to compliment The American Legion 
National Commander, Tom Boch, because he championed to me the Legion's 
approach.  The Legion separated themselves from other veterans' groups 
and MSOs by representing their information to the Committee in the fall 
as the Administration was developing its request.
  This approach is also taken by the House Armed Services Committee 
whereby they bring in the Chairman of the Joint Chiefs in the spring and 
they also then do it in the fall as a look back, look ahead.
  And so that is what we have also here now adopted on the Veterans' 
Affairs Committee doing a spring and fall hearing.  Having adopted that 
and augmented it, I think, will be very helpful, and we learned that 
yesterday.
  As we look at the budget cycle, you can see that we have opened the 
access to Congress, and we will take all of this testimony and we will 
also share it with OMB and the VA.
  I consider this a continuation of the war budgets for the VA.  The 
country is at war and faces challenges and severe demands on fiscal 
resources.  Yet, this is also a budget that reflects a decade of 
unprecedented growth and support for veterans.  The VA budget has nearly 
doubled in the ten years.  Reflecting that support, the VA has earned a 
reputation of high-quality healthcare.
  And I do recall when I first arrived here the flat- lined budgets for 
the VA and I even recall the horrific cases where appropriators were 
taking money out of the VA to fund domestic programs.  One in particular 
was WIC.  I have not seen that in the last twelve years.
  A double budget and a quality product do not, however, mean that there 
are not challenges.  The VA's Secretary has taken ownership of his 
budget and changed the flawed inputs to the model.  That was reflected 
in the strong fiscal year 2007 funding.
  Yet, a perennial challenge to us is also what I refer to as the ghost 
population.  These are individuals that move in and out of the VA health 
system and sometimes utilizing other systems, whether it is TRICARE or 
an HMO, they move in and out of these systems and they pick and choose.  
And it is very challenging for us to get the numbers right.
  Simply plugging a few numbers into a capitation spreadsheet does not 
address this type of complexity.  The discretionary funding gives us the 
responsiveness to do correctly that which is hard, but which must be 
done right.
  Comparatively the assured or mandatory healthcare funding model 
according to the Congressional Budget Office would cost nearly half a 
trillion dollars over ten years. That would be a costly experiment in my 
view.
  And in contrast, the strong discretionary budgets of the past decade 
have proven responsive to change.  Yet, with strong funding, we should 
expect good programs.  However, the seamless transition of 
servicemembers entering the VA system is not where it should be.
  Last month, Secretary Nicholson, Chairman Boozman, Mr. Salazar, and I 
went to Kuwait, Iraq, and Germany to assess the continuing healthcare 
from the combat medic or Navy Corpsmen to all the way to a level-four 
medical facility. We were impressed by the quality of care and the total 
integration and teamwork within the Armed Services.
  Yet, as we sit here, we receive testimony from the Department of 
Defense witnesses who like to talk about their electronic medical 
record.  Well, as Mr. Salazar and I were there, as we watched them 
taking the patients off the bus, we saw that "electronic" medical 
record.  It was paper strapped to their chests.  So it is one thing to 
receive their testimony and then in reality see something much 
different.
  I am disappointed that DoD did not adopt the VA standard with regard 
to interoperability of electronic medical records, and we will continue 
to work with them.  To me, this is not, the seamlessness that we are 
looking for, and we can do much better.
  Also, the recent theft of personal data belonging to millions of 
veterans has shown the utter necessity that the VA and every government 
agency with sensitive data must centralize management over their 
information technology, information policy, and information security.  
IT is the organization's central nervous system.
  And I appreciate those who worked with us on this issue and I am 
disappointed with those who said it was too hard or it was out of their 
lane, but, yet, they were quick to criticize.
  With regard to organizations, if you are outraged by lapses in 
security and unnecessary risk to your members, I would like for you to 
join this Committee in dislodging the status quo and doing right by 
veterans.
  Next week, Mr. Filner and I will be taking the Committee's bills 
dealing with cyber security to the House floor, and I ask for your 
assistance in getting the attention of the United States Senate to this 
very important measure.
  Many of you also cited the disability claims backlog in your written 
testimony.  This issue to me is the big elephant in the room.  The total 
backlog exceeds 800,000 and is climbing.  And I compliment the 
Committee's Task Force on Accountability, of which some of you are 
members.
  I formed this task force to examine issues across the VA, not just in 
DVA, to improve claims development.  I will be meeting with them next 
week.
  Timely and accurate claims' decisions are as important to America's 
veterans as the delivery of high-quality healthcare.
  Some think that if we bring lawyers into the process, that will help 
solve the problem.  I am apprehensive, but I want to be a good listener.  
And so I need testimony from all of you with regard to bringing lawyers 
into the process.
  I need to know if you support what the Senate has done or do you 
support Mr. Evans' approach?  And we will be asking those questions of 
all the witnesses today.
  Ladies and gentlemen, the issues in front of us are not going away, 
and I will share with you the top three priorities that I have as 
Chairman.
  Number one is caring for veterans who have service- connected 
disabilities, those with special needs, and the indigent; number two, 
ensuring a seamless transition from military service to the VA; and, 
three, providing veterans every opportunity to live full and healthy 
lives.
  These are my priorities and I look forward to hearing yours.
  Before we begin, on behalf of the Committee's members and staff, I 
extend an appreciation for the enduring contributions made by your 
members, including the auxiliaries and their families.  You make a great 
difference in the tone and tenor of our country.
  We are at war in two theaters and still have responsibilities 
globally.  Our men and women in uniform are performing their duties 
magnificently.  They are coming home with a simple expectation that we 
will be there for them. It is up to all of us to help these returning 
servicemembers transition to civilian life.  The VA has the structure, 
but the personal help is your strength and you play a tremendous role.
  So I ask you to put your arm around that young Lance Corporal who just 
came back from the War on Terror and help honor our promise.
  I also want to thank Mr. Filner and other members of the Committee for 
their hard work this past summer in dealing with the information 
technology issues.
  And at this moment, I will yield to Mr. Filner for an opening 
statement.
  Mr.  Filner.   Thank you, Mr. Chairman.
  If I may, I think this is the last Full Committee hearing before we 
adjourn.
  The  Chairman.   Oh, you are preempting me.
  Mr.  Filner.   You want to go first?
  The  Chairman.   No, no.  I was going to do it after your remarks.  We 
can do it together.
  Mr.  Filner.   Okay.  This is technically the last meeting both for 
the Ranking Member, Mr. Evans, and our Vice Chair, Mr. Bilirakis.
  These are two great friends of veterans, and we thank Mr. Evans for a 
lifetime of service in not only the Marine Corps but in watching over 
those veterans who came back and making sure they had the best.
  Mr. Bilirakis has been on the Committee for 24 years. We do not often 
think of each other as mentors, but I want to thank you for mentoring 
me. Maybe keeping me in line is a better term.
  Mr. Bilirakis cares so much for the veterans, and he, of course, was 
the leader in the fight to make sure we have the so-called concurrent 
receipt.  But he also was pained when this Committee had divisions, 
especially partisan, and he did his best-- he has got a tough customer 
here, but he did his best to teach me civility and respect.
  I want to thank you not only for the substantive work you did here in 
the 24 years, because you have a lot of accomplishments to your name, 
but in helping all of us achieve a tone that would be more productive 
for the veterans.  So I thank you, Mr. Bilirakis.
  The  Chairman.   I join the gentleman.  When I think of my colleague, 
Mr. Evans, it is of great pain to see a great man of whose body is 
giving way.  And to think that this is the same guy we used to elbow for 
position down in the men's gym playing basketball. To see his condition 
now, it is really hard.
  And all of us know a loved one who had gone through such great pain 
and it affects us all.  And Mr. Evans will be missed on this Committee.  
I do not think he ever forgot his core values shared by his family and 
his parents where he grew up, and polished by the United States Marine 
Corps. And he embraced them and they were enduring and they helped guide 
him here in his service to country.
  And I think the same can be said for Mr. Bilirakis.  I will tell you 
what.  This little Greek man has got a lot of power behind him too.  I 
share with Mr. Filner that his kindness and his graciousness are very 
powerful attributes behind a very tough man in negotiations.
  And it can be disarming because he gets in close and then it is like 
he grabs your collar.  And you have to let him come in close, but he 
gets your attention and then he has something powerful to say.  And I 
think he has earned the respect of many of his colleagues on both sides 
of the aisle.
  So, Michael, you are going to be missed.  And I want to thank you for 
your service to country not only in the Air Force but also for what you 
have done for so many veterans, what you have done for so many widows 
and children.  And so I want to thank you for your years of service.  
You are going to be missed.  But if you need me to come down there and 
pick those grapefruit, I will be more than happy to get the high ones 
for you.
  Mr.  Bilirakis.   Thank you, Mr. Chairman and Bob, Mr. Filner.  I am 
not sure whether to refer to you as Ranking Member, but friend.  I think 
that is probably the best title.
  But, you know, many times as you go through the years, people ask you 
what was your crowning moment in the Congress and for 24 years, you 
know, how can you think of everything. There are so many ups and downs.
  And I oftentimes talk about where a few us a banded together and stuck 
to our guns and helped to tear down that wall and tear down communism in 
the Soviet Union along with President Reagan.  And I feel very proud of 
that.
  But I talk mostly about veterans and our work for veterans.  I am very 
proud of it and very proud to have worked with you gentlemen.  Obviously 
the best honor to me would be to continue with concurrent receipt to do 
something so we can complete that completely.
  But an easier chore, Mr. Chairman, and I mentioned this to you just 
before we started, you know, over the years-- and forgive me, I did not 
plan to do this, but since you sort of opened up the door-- over the 
years, we have heard and we have read about, you know, America and how 
great it has become and how much of that greatness is due to the GI 
Bill, the men and women who came out of World War II and because of the 
benefits of the GI Bill were able to educate themselves and have 
contributed so very much to make this country really what it is.  And 
that opportunity under the Montgomery GI Bill is there and it is even a 
much better opportunity in that sense.
  But I go back to the VEAP prospect where I remember when I was going 
through basic training and I was a noncom, noncommissioned officer, 
enlisted men.  But when I was going through basic training, and if 
somebody had approached me at that time and said, Mike, you have got to 
make a decision whether you contribute out of your very spare, very, 
very spare income as an airman basic and choose this educational 
opportunity that will take place years from now, hell, I mean, I just 
wanted to get through basic training.  I would not have wanted to make 
or been able to make a very intelligent decision at that point in time.
  And I do feel that there is so many who are faced with that same sort 
of thing and passed up that opportunity.  And I would dearly love to see 
this Congress-- I am reminded my VEAP Bill has been introduced, but that 
is besides the point.  We are not going to be able to do anything with 
it this Congress.  But my point here is that I think really that there 
is some way that we can take a look at that.
  And I know when I got out, the payment, full payment for education was 
$110 a month and that was supposed to take care of tuition and books and 
everything else.  Well, obviously I had to go to work full time in order 
to be able to get through school.  But it was a motivational factor to 
have that $110.
  So maybe we can look at things of that nature, Mr. Chairman and Mr. 
Filner, and I would feel awfully good if I read some day in this next 
Congress or so that that has been addressed in some way to give these 
young people an opportunity that was really available to them, but they 
were not really legitimately, adequately able to consider in a very 
serious tone.
  Having said that, thank you very much.  It has been wonderful working 
with all of my fellow veterans over the years.  God bless you.
  Mr.  Filner.   Thank you, sir.
  The  Chairman.   Thank you, Michael.
  Anyone else want to make any opening statements?
  Mr.  Filner.   I would yield to anybody else for any comments on our 
Vice Chair.
  Let me just say a few words, if I might, Mr. Chairman.
  In the spirit of Mr. Bilirakis, I think we are trying to create here 
an agenda for the coming year, and we will work together on that.
  We certainly worked together on this Committee to come out with good 
cyber security protection for the veterans, and that bill will be on the 
floor, as I understand it, next week.  We will try to pressure the 
Senate to look at it.
  We disagree on some other things, but I do not think any of us on this 
Committee disagree that our first role is to enhance the life and 
quality of our veterans who have given us so much.  We may have 
different ways to get there.
  This process, Mr. Chairman, that you started, I think we may want to 
look at and maybe try to get the benefits that you suggested with the 
benefits that we had when the rank and file from VSO members were able 
to be in the room and see their government in action or in inaction, 
whichever.
  I think we have to figure out how to combine those two goals of trying 
to make sure the testimony comes at a relevant point and people feeling 
a part of the process and not excluded from it.
  As you know, Mr. Chairman, one of the top priorities on this side is 
to end the practice of veterans' organizations coming almost hat in hand 
begging for money. This is not only wrong in terms of the contract that 
we have with veterans, but it is a shameful kind of position.
  The only way we get out of that, and I think most of the VSOs agree 
with this, is through mandatory or assured funding, that we do not 
dispute every year a billion here, three there, two billion, everybody 
is pointing fingers at one another, that we have a source of funding 
that is guaranteed by law.
  We can talk about the cost of that.  There are different estimates 
than what we have heard this morning, but I think we have to get there 
because what we have now is at least a quarter of a million, veterans 
barred from being enrolled in the VA system.
  We have folks coming back from Iraq and Afghanistan, who have to wait 
many, many months, if not more than a year for certain appointments or 
who cannot get the mental health assistance that they need.  We have to 
have a better system, and I look forward to working with you to do that.
  The budget process in the last few years, as the Chairman said, has 
led to a doubling of the absolute dollars for the VA.  But if your needs 
are escalating faster than the money and the costs are escalating faster 
than the income, you are falling behind no matter what the absolute 
dollars say.  And we are falling behind here.
  The Administration, for example, has kept up efforts to try to make 
veterans pay more for their care rather than asking for additional 
resources from the Congress. Thousands of people are waiting for 
clinical appointments. I have a thousand veterans waiting for their 
first appointment in San Diego, in the San Diego Medical Center. That is 
disgraceful.
  We are not meeting the mental health needs.  We saw what happened in 
Vietnam when we neglected those problems.  Up to a half of the homeless 
on the street tonight are Vietnam vets.  It is a disgrace that we have 
allowed this to happen. And, yet, we are repeating the same mistakes 
with those coming back with postt-raumatic stress disorder from Iraq. 
They go through the same pattern, domestic violence, problems in the 
family, problems on the job, alcohol, drug abuse, homelessness, suicide.
  Thirty years after Vietnam or 35 years, we know how to deal with this.  
It is a question of resources.
  The Administration has not met its statutory requirements for long-
term care as our veterans age.  They have sought cuts in traumatic brain 
injury care at the height of a war that is producing more brain injuries 
than ever before. We have vacancies whether in nursing or counseling or 
other specialties all around the country.  So we have to do better.
  The VA is a basically sound system.  That is why we care so much about 
it.  It has certainly improved, as the Chairman said, from substandard 
care of several decades ago. It is now on the cutting edge of healthcare 
in many areas and, in fact, the world.  But if we have delayed care or 
rationing of care or veterans unable to access it, we are not doing our 
job.
  I am glad that you care about the quality.  Many of you have supported 
this Independent Budget, which I take as my Bible during the budget 
process, to try to make sure we have the resources that we need.
  Mr. Chairman, I look forward to working with you in the future.  I am 
not sure whether we will have another Mr. Bilirakis with us next year.  
I hope so.  But we have a lot of work to do, and I look forward to 
working with you to complete that job.
  The  Chairman.   Thank you, Mr. Filner.
  [The statement of Bob Filner appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

  The  Chairman.   Today we will hear from several of the Commanders and 
Presidents, and representatives of veterans services organizations and 
military service organizations. So I shall now introduce them to my 
colleagues.
  First representing the Air Force Sergeants Association is Chief Master 
Sergeant John McCauslin?
  Chief McCauslin.   Yes, sir.
  The  Chairman.   He is the Air Force Sergeants Association's 
International President.  The Chief currently is serving his second term 
as International President. He joined the Air Force in June 1955.
  The Chief has served in a variety of medical-related positions at Air 
Force installations worldwide.  During his career, he was selected as a 
Senior Enlisted Advisor for the Fifth Air Force in Japan and the Senior 
Enlisted Advisor to the Commander of the United States Air Forces Europe 
in Ramstein, Germany.  He served 32 years in the United States Air 
Force.
  Representing the Retired Enlisted Association is the National 
President, Patrick Corbett.  Mr. Corbett was elected President September 
1st, 2006.  He has held many positions within TREA including member of 
the Board of Directors and the Second Vice President and First Vice 
President.
  Mr. Corbett enlisted in the United States Marine Corps in 1957.  
During his 23 years of service, he served two tours in Vietnam.  In 
1980, he retired from the United States Marine Corps.
  Why don't I just call you Gunny?
  Sergeant  Corbett.   Beg your pardon, sir?
  The  Chairman.   You are Gunny?
  Sergeant  Corbett.   Yes, sir.
  The  Chairman.   You look like a Gunny.
  I mentioned this yesterday.  There is something about you guys.  They 
dip you and you all look alike.  You all act alike.  You all talk alike.  
And then you are like a Gunny for life.  That is a tremendous compliment 
because a lot of people rely on Gunnies.
  He is the father of three adult children with four grandchildren, and 
resides in Pennsylvania.
  Speaking for the Military Officers Association of American is the 
National President, Vice Admiral Norb Ryan. Admiral Ryan assumed the 
position in September 2002.  In 1967, having barely gotten through the 
Naval Academy-- oh, I am sorry.  Kelly must have made a mistake there.
  Kelly picking on you, Norb?
  Ms.  Craven.   [Majority Counsel]  No.
  The  Chairman.   I apologize.
  He did graduate from the Naval Academy with distinction and was 
designated a Naval Aviator in 1968. Admiral Ryan has numerous 
operational and sea duty assignments including Command of the Squadron 
at Wing level culminating with Commander of Patrol Wings, U.S. Pacific 
Fleet Commander, and Commander of the Task Force 12.  He has directed 
the Navy's Office of Legislative Affairs and was also Chief Personnel 
for the United States Navy.
  Admiral Ryan is a graduate of George Washington University with a 
Master's in Science Degree, Personnel Administration, of the National 
Security Program at Harvard University's John F. Kennedy School of 
Government.  And before retiring, as I said, he was the 52nd Chief of 
Naval Personnel.
  We will also then hear from Mr. John Lopez of the Association for 
Service Disabled Veterans. He has been Chairman since 1985.  Mr. Lopez 
is a Marine who was disabled while in service in Korea.  His career has 
been frequently interrupted by physical relapse due to his military 
service and injuries.
  Mr. Lopez has developed several socioeconomic smaller business 
programs for major corporations, and he initiates disabled veteran 
entrepreneur programs with the U.S. Small Business Administration and 
Bank of America.
  Mr. Lopez is Chairman of the U.S. Congress Advisory Committee on the 
Study of the Needs of Service-Disabled Veteran Entrepreneurs and Co-
Chairman of the National Task Force for Veterans Entrepreneurial 
Development.
  We welcome all of you.  Before you begin, do each of you have written 
testimony you would like to be submitted for the record?
  All answering in the affirmative, your written testimony will be 
entered into the record.  Without objection, so ordered.
  Each of you will have ten minutes to testify.  The Committee will 
operate under the five-minute rule.  And I will grant you latitude.  So 
when you see the light come on after your ten minutes, try to summarize 
and move toward the end of the testimony to be courteous to each of the 
witnesses.
  Chief, we will begin with you.

STATEMENTS OF CHIEF MASTER SGT. JOHN R. MCCAUSLIN, INTERNATIONAL 
PRESIDENT, AIR FORCE SERGEANTS ASSOCIATION; GUNNERY SGT. PATRICK 
CORBETT, NATIONAL PRESIDENT, THE RETIRED ENLISTED ASSOCIATION; NORBERT 
RYAN, JR., NATIONAL PRESIDENT, MILITARY OFFICERS ASSOCIATION OF AMERICA; 
JOHN K. LOPEZ, CHAIRMAN, ASSOCIATION FOR SERVICE DISABLED VETERANS

STATEMENT OF JOHN R. MCCAUSLIN

  Chief McCauslin.   Thank you, Mr. Chairman, and distinguished 
Committee members.
  On behalf of our 130,000 members of the Air Force Sergeants 
Association, thank you for this opportunity to offer the views of our 
members on future priorities for the Department of Veterans Affairs.
  AFSA represents active duty, Guard, Reserve, retired, and veteran 
enlisted Air Force members and their families around the world.  Your 
continuing effort toward improving the quality of their lives has truly 
made a real difference and our members are forever grateful.
  Since my time here today is very brief, I will restrict my comments to 
just a few of the areas covered in my written statement, which I hope 
will be entered in its entirety into the written record.
  Today the demands of military service are increasing, non-traditional 
education programs are evolving, and the efficacy of the Montgomery GI 
Bill to support actual education programs is diminishing.
  As a member of the Military Coalition and Partnership for Veterans' 
Education, the Air Force Sergeants Association strongly endorses the 
need for a better GI Bill that meets the needs of all those who wear the 
uniform, yet is robust enough to assist the individual services in their 
recruiting efforts.
  Our members eagerly await this Committee's future proposals regarding 
the Montgomery GI Bill and hope that any new benefit proposal more 
closely meets the actual cost of obtaining an education, eliminates the 
current $1,200 fee to participate, and allows expenditure of that 
benefit in greater amounts to accommodate the cost of a broad range of 
accelerated and advanced courses.
  I also ask the Committee to keep in mind that there are thousands of 
servicemembers currently on active duty who did, for whatever reason, 
enroll in either the Veterans Educational Assistance Program, otherwise 
known as VEAP, or the Montgomery GI Bill.
  Time is truly running out for Congress to provide servicemembers from 
the VEAP era an enrollment opportunity, and the vast majority have 
already retired from us.  As of 1 July last year, all actively serving 
who enlisted in this time frame were eligible to retire.
  Being mindful that the principal purpose of educational assistance 
programs is to assist veterans in their transition back into the 
civilian workforce, we urge your Committee to act quickly to at least 
provide a transitional education benefit for the relatively few 
remaining VEAP-era enlisted members.
  Veterans around the world applaud your Committee's and Congress' 
decision to once again reject the Administration's proposed $250 user 
fee to receive their promised VA healthcare.  Our feeling has been and 
continues to be that such an enrollment fee should be applied only 
prospectively; that is, for people who have not yet begun their military 
service.  Current veterans should not be charged a fee for access which 
earlier Congresses determined was not appropriate.
  It goes without saying that we could do a lot to improve the handoff 
of veterans from military to veteran status, from DoD to the VA.  
Transferability of information is the most critical element in that 
whole seamless transition process.  The VA and DoD have two distinctly 
different electronic record keeping systems, but only the VA's system 
allows transferability of medical information globally.
  Advances have been made toward seamless DoD/VA transition, but it is 
important for Congress to resolve the VA/DoD medical records situation.  
Without your leadership, this situation will go unresolved and veterans 
will not be receiving the best care they truly deserve.
  And, finally, for most veterans, contact with the VA begins with the 
claims process.  On a daily basis, the VA's current claims backlog 
totals several hundred thousand, as Congressman Filner alluded to, and 
this is an unacceptable number.  It is going to take money, thoughtful 
planning, proper training, and innovative ideas to break through what 
seems to be an insurmountable problem.
  AFSA encourages your Committee to support departmental plans to reduce 
pending cases with one caveat.  We absolutely disagree with any plans to 
reduce the number of claims processing personnel.
  Technology is not going to solve this problem; people will.  And 
Congress should flatly reject any plan that reduces the number of 
personnel in this area until that backlog is cleared up.
  The recent recall of two retired judges to assist the U.S. Court of 
Appeals for veterans' claims is exactly the type of smart resource use 
that we feel will help the Department reduce this unprecedented number 
of pending claims.
  Before I conclude, I want to take a moment to recognize an 
extraordinary individual who has been a long-standing member of your 
Committee and will be retiring at the end of this year, a friend and 
member of the Air Force Sergeants Association, Mike Bilirakis from the 
9th District in Florida.
  On behalf of veterans everywhere, we thank you, sir, for your 
leadership and most importantly your tenacity to fight for what you feel 
is right and for what veterans and their family members truly deserve.
  You will be missed by all of us, but you leave a body of work that 
will long outlast all of us.  It has been an honor and a true pleasure 
for our association to have been able to work with you for these past 24 
years.
  We wish you, your wife, Evelyn, and your entire family the very best 
in years to come.
  In conclusion, it is imperative in peacetime or in war that veterans 
know their needs will be taken care of.  Once they have served honorably 
and they need help, we believe their care and assistance becomes the 
responsibility of the nation that they served.
  On behalf of all AFSA members, we appreciate your efforts to ensure 
that our nation does just that.  And as always, we are ready to support 
this Committee in matters of mutual concern.
  Thank you, sir.
  The  Chairman.   Thank you very much.
  [The statement of John R. McCauslin appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

  The  Chairman.   Mr. Corbett.

STATEMENT OF PATRICK CORBETT

  Sergeant  Corbett.   Mr. Chairman, Acting Ranking Member Filner, and 
members of this Committee, it is always an honor for The Retired 
Enlisted Association to testify about the needs and concerns of American 
veterans, military retirees and their families and survivors.
  It is a particular honor for me, the new National President of TREA, 
to testify before this Committee on what has happened in the last year 
and what we hope the future will bring.
  The Retired Enlisted Association is a veterans service organization 
founded over 40 years ago to represent the needs and points of view of 
enlisted men and women who have dedicated their careers to serving in 
all the branches of the United States Armed Forces, active duty, 
National Guard and Reserves, as well as members who are doing so today.
  When we look at what has happened this year and what should happen 
next, we seem to have started down many roads and have not come to the 
end of any of them.  Indeed, many of these paths will always have to be 
worked on and improved.  It is just part of how an enormous organization 
works.
  The main duties of the VA are basically the same year in and year out.  
They are to provide first-class healthcare for those who have kept us 
free, to accurately and quickly provide the financial support owed to 
veterans by the United States government, to provide for the widows and 
orphans who have lost their loved ones due to his or her service to our 
country, and to make sure there are appropriate resting places and 
funeral honors for those who have served.
  But which of these issues are most in need of work from year to year 
varies.  In the past few years, our concerns have centered on sufficient 
funding to provide first-rate healthcare to all qualified veterans who 
needed and earned it.  Of course, in this time of war, this must still 
be our primary concern.
  Since the disastrous shortfall in 2005, all of Congress agreed with 
you that adequate funding for the VA healthcare is essential.  You added 
a critical supplement to cover the shortfall of the VA's budget request.  
And this year, VA request corrected some of the past year's mistakes.
  Is this year's budget sufficient?  Of course not.  How could it be?  
But it is much better than in the past, and we thank you.  The budget 
needs to be covered.  The two-year program for all veterans returning 
home from Afghanistan and Iraq, it must cover various expense to treat 
and rehabilitate our wounded warriors.
  It must cover the medical needs of veterans who preserved our freedom 
and safety in the past.  And we should never forget that it must cover 
the nursing home cares, the needs of many of our greatest generation who 
are now reaching the time in life when they need this type of care.
  Looking back at this past year, we are very grateful to note you 
refused to implement the proposed $250 yearly enrollment fee and sharp 
drug co-pay increases for those veterans presently enrolled in category 
seven and eight.
  We expect that when looking towards next year, there will be a similar 
proposal, and we hope that you once again say no.  We know that some of 
you on this Committee are in favor of this proposal, but TREA is firmly 
opposed.
  Numerous of our members really rely on this program that was 
established at a time in their lives when getting new medical coverage 
is close to impossible.  They are living on a fixed income.  The 
proposed increase would be financially crippling to them.  We believe 
you will hold firm and protect these former warriors now that they need 
protection themselves.
  But beyond healthcare, there are other critical needs in the VA, and 
this is what I would like to focus on now. These include increasing the 
IT security throughout the VA, working to improve the speed, 
consistency, and accuracy of VA disability determination, and thereby 
the present dramatic backlog, and, finally, creating a seamless 
transition between DoD and the VA for all veterans.
  It has become dramatically clear to the whole nation this year that 
the VA must make major improvements in its IT security.  TREA is well 
aware that our Committee's Chairman has been trying to get VA to focus 
on this problem for a year.
  The theft of a VA computer and hard drive with personal information of 
approximately 22 million veterans and an additional computer theft from 
the VA contractor has certainly gotten their attention.
  This Committee must make sure that the VA stays focused on making 
these necessary improvements.
  We hope that House Resolution 5835, this Committee's bipartisan bill, 
will pass before the end of this session. This bill would go far in not 
only to correcting the VA's IT problems, it would make the VA an up-to-
the-minute leader in IT security.  And the proposed fellowship for 
talented people in this field would hopefully keep the VA on the cutting 
edge in the future.
  With the VA putting out fires in the fields of medical care and IT 
security, there has been little discussion recently about the continuing 
problem in the area of disability claims determination.  These delays in 
decision making and the inconsistency of the decisions around the 
country have made veterans doubt that they are being treated fairly.
  This problem has gone on for years and has not been solved.  And with 
more and more complicated injuries to be dealt with, it is obviously a 
problem that needs to be solved now.
  What is clearly needed is more and better trained people doing this 
work.  There also needs to be better supervision around the country so a 
decision on various types of disabilities will be the same in all VISNs.
  Following the direction of Congress, the VA is supposedly trying to 
get disabled veterans to apply for benefits in six areas of the country 
where payments are dramatically lower than in the rest of the country.  
What is found to be service-connected in one VISN is not service- 
connected in another.
  Percentages granted vary for the same injury.  This needs to be 
corrected through constant training and regular supervision.  Then 
hopefully cases could be decided quickly and correctly.  There would be 
fewer appeals and the backlog would go down.
  We hope that this Committee will make sure this push will continue in 
the future.
  For years, TREA and Congress has called on the VA and the DoD to 
create a seamless transition from being a member of the U.S. Armed 
Forces to being a veteran.  And large steps forward have been made, but 
we still do not have a seamless transition.
  The two medical records systems of the VA and the DoD do not talk to 
each other and this is a must.  We need to finally have one medical 
examination to be used by two departments.  It would finally create a 
seamless transition. It will save time, money, and aggravation.  It 
would make healthcare better.  It would make IT more secure and make 
disability determinations accurate and fast.  It would help improve all 
these problem areas.
  Of course, the numerous bills that we hope can still be passed by the 
109th Congress, that includes Representative Filner's House Resolution 
2747 and Representative Bilirakis' House Resolution 1462.
  House Resolution 2747 would modernize the insurance plan for disabled 
veterans by using today's actuarial charts rather than those from 1941.
  House Resolution 1462 would allow DIC recipients to remarry at age 55 
rather than the present 57 without losing their payments.
  Both programs are not expensive, but they would greatly help a small 
group of very deserving people who have been overlooked.
  As I said in my written testimony, if one looks at the VA bills passed 
so far this year, you would think it has been a very calm town.  How 
wrong you would be.  With last year's enormous shortfall and this year's 
IT theft, it has been a terribly busy year.
  TREA members know how much the members of the Committee had to do to 
protect our veterans and personnel security. Thank you.  We hope 2007 
will be a year where we can work together to improve the future and not 
just deal with disasters.
  We hope the VA healthcare grows to provide first-class service for all 
our beneficiaries.  We hope that both the quality of disability 
decisions and the size of the backlog improves.  We hope IT security 
becomes the best in the federal government.  And we can reach these 
goals by working together.
  This year, we will be losing some of our strongest advocates.  Both 
Representative Lane Evans and Representative Michael Bilirakis will be 
leaving the House at the end of the session.  All TREA members thank 
both men for all they have done for this nation's veterans and their 
loved ones.  They have been remarkable and steadfast advocates for us, 
and we will forever be grateful to you both.  We will miss working with 
you in the future.
  Thank you very much for your attention, and I will be happy to try to 
answer any questions you might have.
  [The statement of Patrick Corbett appears on p.  ] 

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

  The  Chairman.   We have currently three votes in front of us.  The 
previous question adopted the rule on H.R. 4830 and the suspension vote 
dealing with the Military Personnel Financial Services Protection Act.  
So it is a 15 followed by two fives.
  And, Admiral, I hate to interrupt your testimony.  So if we could go 
ahead and recess right now and then come back after the vote and then 
receive your testimony rather than bifurcating it.  Would that be all 
right?
  Admiral  Ryan.   Okay.
  The  Chairman.   All right.  The Committee will stand in recess.  We 
will reconvene around quarter to ten till twelve.
  [Recess.]
  The  Chairman.   The House Full Committee will come back to order.
  We now recognize Admiral Ryan.
STATEMENT OF NORBERT RYAN, JR.

  Admiral  Ryan.   Thank you, Mr. Chairman, Ranking Member Filner.  I am 
honored to be here today representing our 360,000 members of the 
Military Officers Associations of America.  Like my colleagues, I use 
that word honored with a great deal of sincerity.
  I do not think there is a higher calling for a member or a staff 
person than serving on this Committee.  And I know that Mr. Evans is 
here in spirit and Congressman Bilirakis was here earlier.  Those two 
gentlemen exhibited that higher calling, sense of higher calling, and 
the Military Officers Association deeply appreciates their servant 
leadership and their personal example.  They have impacted on hundreds 
of thousands of lives, and we are deeply grateful for their service.
  MOAA is also grateful to the Committee for adding needed resources to 
the VA healthcare system.  But like my colleagues, we remain concerned, 
as you are, that the VA continues to underestimate demand.
  The bottom line is when veterans do get their appointments, the 
quality of care is among the highest in the nation, as you said, 
Congressman Filner, but they should not have to wait months for that 
care.
  As the Chairman mentioned, we are reminded over and over that we are a 
nation at war, so it is imperative that we fund the VA system 
accordingly.  Just as this nation is stepping up to the plate to pay the 
enormous cost of the War on Terrorism, they must also step up and fully 
fund the healthcare system that serves the needs of our wounded warriors 
and all other veterans the VA has agreed to treat.
  To properly fund the VA, we need to get our facts and data straight.  
MOAA has three recommendations to do this.
  First, we recommend that the VA continue its work to overhaul its 
demand projection model which, as you all know, fails to adequately 
recognize that all returning Operation Enduring Freedom/Operation Iraqi 
Freedom veterans are eligible to enroll for up to two years with no 
questions asked.
  Second, the VA budget should be built to meet the VA's own 30-day 
access standard.  What is the point of having access standards if the 
budget is not built to meet them?
  And, third, we recommend the Committee continue to carefully consider 
the veterans' Independent Budget for the next fiscal year, fiscal year 
2008.  The Independent Budget has consistently been a very reliable 
projection of the true demand and cost of care.
  MOAA like the Committee, is particularly concerned about the care and 
rehabilitation of our most severely wounded men and women.  I have 
recently visited the Tampa VA Polytrauma Rehabilitation Center.  The 
quality of care is impressive, but the facility, particularly some of 
the buildings are bursting at the seams.
  I have seen worried family members sleeping in a lounge chair that 
cannot fit into the room out in the passageway. I have seen the modern 
equipment that they need to help rehabilitate and heal these veterans 
out in the passageway because they cannot fit it into the room.  We have 
got to innovate and find a way to accommodate this new technology.
  We strongly recommend that the Committee make funding for traumatic 
brain injury, spinal cord injury, PTSD, prosthetics, blinded vet care, 
research and family counseling a priority going forward.  We applaud the 
Committee for continuing to champion the cause of seamless transition.
  Last spring, Army Captain Mark Giammatteo who underwent 30 surgeries 
at Walter Reed to repair combat injuries, testified before the Veterans 
Disability and Benefits Commission.  He stated while on convalescent 
leave in his hometown, he experienced a medical problem and attempted to 
check into the local VA facility, but the VA official said they could 
not treat him since he was on active duty.
  Seamless transition must include interoperable medical records as you 
both gave examples of.  So far, DoD and the VA health systems can only 
talk to each other in limited ways.
  The President has signed an Executive Order saying that we ought to 
have common health records, and it was signed in August.  We have got to 
get on with it.
  We agree with the Chairman that the VA has got a good start on this, 
but we hope you all will continue to get DoD and VA in the same room and 
ask them to come out with a solution in the shortest time possible.  And 
it will take some jaw boning to get that done.
  Speaking of data issues, we strongly support the Committee's 
bipartisan bill, House Resolution 5835, to strengthen data security and 
protect our veterans in the event of a future data breach.  And we will 
be there with strong support for your efforts on the floor next week, 
Mr. Chairman.
  Turning to the benefits, a major priority should be improving the 
claims processing including hiring and training new colleagues or new 
claims workers to replace retiring workers and upgrade the system to 
speed claims operations.
  We also recommend greater flexibility in delivering transition 
assistance.  For example, Guard and Reserve veterans need to get TAP 
information near their homes.
  As a founding member of the Partnership for Veterans Education, MOAA 
believes we need to restructure the GI Bill as soon as possible.  All of 
my colleagues have addressed it as have you all.
  Mr. Chairman, as you know, right now the Army and Marine Corps 
Reserves have sent over 280,000 men and women to Iraq and Afghanistan 
and have mobilized over 500,000 since 9/11. Yet, they do not have the 
same benefits for the GI Bill. Guard and Reserve education benefits have 
dropped from about 50 percent of active duty rates in 1985 to 29 percent 
since 9/11.
  An active duty member who serves two years on active duty and one tour 
in Iraq can use his or her GI Bill after separating, but no one who 
spends six or eight years in the Guard or Reserve and does two or three 
tours in Iraq can. That is just not right, and Reserves know it.
  If you look at the recent trend in recruiting for the Army, it is a 
very troubling trend.  Army Reserve recruiting was 87 percent of goal in 
July and 62 percent in August.  We believe this is symptomatic of the 
fact that this nation has not sent a high enough signal of value, 
particularly those who are in the Reserves.
  The Guard usually has a great state education benefit as all of you 
know in your states, but the Reserves belong to no one as a direct 
relative.  And I see the Reserves are going to be the ones that first 
bring risk to the all- volunteer force, and I think it started in 
Reserve recruiting right now.
  So we recommend combining the active duty and Reserve GI Bill programs 
under Title 38 and scaling the benefits to match duty performed 
including equal opportunity for all to use benefits after they have 
completed their service obligations.
  Mr. Chairman, MOAA appreciates your public statements on this concept, 
and we really appreciate the leadership of Congressman Boozman, 
Congressman Snyder, and many others on the Committee who have championed 
this issue.  And we cannot urge action quick enough by the Congress.  We 
think this is something that is really going to be an Achilles heel for 
the all-volunteer force, this weakening and erosion of support as 
perceived by the members of the Reserves.
  Finally, MOAA believes strongly that we must fix remaining inequities 
for survivors of members whose death was caused by service.  One 
disconnect, as my colleagues have mentioned, is that the DIC widows must 
be at least age 57 to retain their VA compensation if they remarry.  We 
think as a minimum that should be changed to age 55, the same standard 
as all other federal survivor programs.
  We also urge your leadership in ending the deduction of DIC from 
military survivor benefit plan annuities.  It is on another Committee, 
but you all are the influencers of the Congress and you can help us get 
rid of this shameful offset for SBP for those that lose their spouses 
due to their disability or in combat.
  Thank you again, Mr. Chairman, and members for setting a higher 
standard on this Committee and for answering the higher calling.
  The  Chairman.   Thank you, Admiral.
  [The statement of Norbert Ryan, Jr. appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

  The  Chairman.   Mr. Lopez, you are now recognized.
STATEMENT OF JOHN K. LOPEZ

  Mr.  Lopez.   Good afternoon, Mr. Chairman.  Mr. Chairman and Ranking 
Member Filner, thank you for your attention and accepting our written 
statements for the record.
  As you may know, the Association for Service Disabled Veterans is an 
organization of disabled and military service veterans devoted to the 
rehabilitation of all disabled military veterans to the maximum state of 
self-dependency attainable within existing technological and human 
resources.  Consequently, our focus is directed towards freeing the 
service-disabled veteran from the dependency of tax supported assistance 
whenever possible.
  To that end, service-disabled veterans are extremely grateful to the 
accomplishments of the 106th, 107th, 108th, and the 109th Congress under 
the leadership of this Committee.
  Under the responsible and compassionate leadership of your Chairmen 
and Ranking Members, you have established self-employment 
entrepreneurship as a viable opportunity for our nation's service-
disabled veterans to live a life of individual dignity and make a 
significant contribution to the economic prosperity of our nation.
  Public Law 106-50, Public Law 108 - 183 and the pending House 
Resolution 3082 and portions of the Reauthorization of the Small 
Business Act of 2006 are continuing statements of the intent of the 
United States Congress to enable the rehabilitation of those who have 
sacrificed their well-being for the prosperity and security of the 
United States of America and the free world.
  However, there remains the issue of effective implementation of the 
intent of Congress due to the lack of compliance by the prime 
contractors that receive the vast majority of agency procurement 
dollars.
  Although required by legislation to subcontract opportunities to 
service-disabled veteran owner businesses and to assist in self-
employment rehabilitation, major contractors continue to evade 
compliance through various regulatory manipulations.  This has had the 
dramatic effect of diminishing opportunities since the majority of 
procurement dollars are awards to billion dollar prime contractors.
  It is requested that the Committee request information regarding the 
subcontracting performance and practices of prime contractors of federal 
agencies, especially the lack of compliance by the United States 
Department of Veterans Affairs and the United States Department of 
Defense billion dollar prime subcontractors.
  Irrespective of the efforts of the Committee, a feeling persists among 
the service-disabled veteran population that the vested interests of the 
agency procurement bureaucracy and the influence of special interest 
groups is so pervasive that it may require major oversight if we are to 
make significant and positive change.
  Central to this quandary is the service-disabled veteran perception 
that the service-disabled veteran is a powerless stakeholder in the 
effort to establish and maintain an effective rehabilitation program for 
our nation's service-disabled veteran heros. 
  Attached to this testimony is a discussion concept that considers the 
question of the establishment of a policy of countervailing power for 
the serving military person titled Selective Sacrifice.  This concept 
would reinforce the perception of the serving military that their 
sacrifice be actively emphasized and subsequently acknowledged and 
honored.
  This concept of Selective Sacrifice is a reflection of the advice of 
the First President of the United States that the willingness with which 
our young people are likely to serve in any war, no matter how 
justified, is directly proportional to how they perceive the veterans of 
earlier wars were treated and appreciated.
  Thank you for your attention.  I shall be pleased to answer any 
questions you may have.
  [The statement of John K. Lopez appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

  The  Chairman.   Mr. Lopez, you need to help me here a little bit.  I 
want you to articulate a little better for me when you talked about the 
quandary and the perceptions that the service-disabled veteran is a 
powerless stakeholder.
  Will you please articulate that a little further?
  Mr.  Lopez.   Certainly, Mr. Chairman.
  The populous views veterans as victims.  The Defense Department views 
veterans as casualties.  And the legislature and the Congress, rather, 
and the Administration view veterans as beneficiaries.  In none of these 
definitions are veterans recognized as participating stakeholders in the 
formulation of the policies which govern their lives.
  Mr. Filner made a reference earlier today towards enabling veterans to 
be more participatory in the legislative process.  It was a passing 
reference.  Perhaps he can elaborate on it.  I will not do that for him.
  Veterans come before you gentlemen and ladies and they ask you to get 
them things, to do things for them.  We do not participate in the actual 
negotiation, in the actual formulation of those benefits or those needs.
  I think it is very imperative if we are continue to retain the 
interest, patriotism, allegiance, and concern of our veterans that we 
come up with some type of a system whereby they are day-to-day or maybe 
even policy-to-policy participants in the actual formulation of 
programs.
  I think this can be done by when program managers in the Department of 
Veterans Affairs meet with senior staff or with your staff and start to 
discuss what they are going to do in a particular area of concern that 
they include random selected or specifically selected members of 
veterans' organizations so that they can be true participants, not 
recipients, not reacting at all times.
  You have had before you with all of your effort and all your 
accomplishments, you have the constant haranguing from the veterans 
organizations not willing to accept what you have done for them.  And 
many times, we consider that to be the ungrateful whining of a 
population.  What I believe it is, is a population that is really 
ignorant on what it is that is being done for them.
  The  Chairman.   Well, you have been responsive to the first part 
where you said a powerless stakeholder in the effort to establish.  Now 
please articulate the second half of that when you use the word to 
maintain.
  Mr.  Lopez.   Repeat that, please.  I do not --
  The  Chairman.   Well, in your testimony, you have used this 
perception among the service-disabled veterans about a powerless 
stakeholder in the effort to establish, an effective rehab program for 
our nation's disabled heros.
  Mr.  Lopez.   Okay.
  The  Chairman.   Then you also then used the word to maintain.  So you 
have just articulated for me with regard to establish.  Now articulate 
is this perception also then in the marketplace?
  Mr.  Lopez.   Yes, sir.
  Also, you have existing programs, historical existing programs.  Many 
of the gentlemen here already testified regarding the direction of those 
programs.  Not one of them, not one, enunciated their participation in 
the formulation of the directions of those programs.  And I would like 
to hear from them saying that they were invited or any organization that 
they were invited to negotiate, discuss what a policy would be and how 
it would be formulated.
  We do that informally and sometimes formally as we are now with you 
because of the Congress' concern and responsibility.  We do not do that 
when these programs are actually formulated and put into practice.  We 
take what we get.
  The  Chairman.   We are passing in the night.
  Mr.  Lopez.   Right.
  The  Chairman.   Let us go back here a second.  My question is about 
this perception of a disabled veteran. See, for this Committee, we 
decided to form a separate Subcommittee called Economic Opportunity 
because we want veterans to live as full and complete lives as they 
possibly can, and to examine those types of programs.
  My question to you is, when you testify to us and you say about the 
perception of powerless, I have heard what you said about to establish.  
My question to you is, in the marketplace, do they feel that they are 
also powerless in the marketplace?  If you cannot testify to that, then 
do not.  But just let me know whether you can be responsive to that.
  Mr.  Lopez.   Let me comment to that.
  Yes, they feel they are powerless because once they get into the 
marketplace, they found that they are overwhelmed by numerous 
regulations and interpretations by the bureaucracy which the bureaucracy 
maintains is a reflection of the intent of the Congress.
  The  Chairman.   So that is why you used the word ignorance in your 
prior statement?  Ignorant meaning because they just do not know, so it 
is the better outreach to them?  What is it?  How do we bridge that?
  Mr.  Lopez.   I do not think your Committees, and I am sincere when I 
say it, have been-- without you, self- employment, entrepreneurship 
would not exist.  You have made a tremendous stride in the options of 
service-disabled veterans to have a meaningful quality of life.
  However, however, it is the implementation where they feel that they 
are powerless because you have done your duty.  You have taken your 
initiative.  But when this is applied in the bureaucracy, there is no 
payoff.  There is no result.
  And you can only recollect the fact that we have come to you time and 
time again saying fix this, fix that, fix this, fix that because we have 
met with frustration in the marketplace, because all the work you did 
before, they have reinterpreted that work and said that they will decide 
what the interpretation of Congress is, and it is not as you folks feel 
is to your benefit.
  The  Chairman.   All right.  Thank you.
  Mr.  Lopez.   So that is our frustration.
  The  Chairman.   We cannot even get the VA to hit their standards on 
the set-asides let alone the rest of this bureaucracy.  This Committee 
does not have jurisdiction over all departments of government.  I assure 
you we would change that from-- 
  Mr.  Lopez.   I know.
  The  Chairman.   --from a goal to a mandatory standard. But then at 
the same time what happens in this town is there is gamesmanship with 
regard to these set-asides.  So you have got that big dominant player 
out there that says, well, I can go after that particular contract.  I 
will just find me a veteran's owned business that is a front-- 
  Mr.  Lopez.   Exactly.
  The  Chairman.   --and they become the primary and the big guy is the 
sub and they do a little payola.  I hate to call it payola, but they 
take a cut as the front so they can gain access to a particular 
contract.  Huge games going on in this town, whether it is through 
Alaskan, Indian, any minority set-aside, disabled veteran set-aside.
  So you are right.  As soon as we make a little change that we feel 
like we are making a fix, the fix is out there, too, the gamesmanship 
that goes on with the system.
  I have to ask this question, and then I want to then yield to Mr. 
Filner.  I am asking everyone the question about the attorney 
representation issue.
  I need to know whether you support bringing attorneys into the claims 
process or not, whether you support the approach given by the Senate, 
which means bring them in, lawyers in at the beginning of a claims 
process, that veterans should have that option; or Mr. Evans' approach 
meaning you can bring a lawyer in after the notice of disagreement has 
been issued.  If your association does not take a position, please let 
me know that.
  Chief.
  Chief McCauslin.   Thank you, sir.
  I was reviewing again the Constitution of the United States, which I 
carry with me, and it just reminds me of this one part of the 14th 
Amendment that says no person shall be deprived-- any person shall be 
deprived of life, liberty, or property without the due process of law 
nor deny to any person within this jurisdiction the equal protection of 
the law.
  It is not a yes or no with Air Force Sergeants Association.  I think 
we still want to study what is behind it, what is the implications, what 
is the cost, and more important, as the last gentleman talked, 
regardless of how the law has changed, what is the actual where the 
rubber hits the road activity out there where there is a veteran who has 
a denied claim.
  We certainly do not want the ambulance chasers to be out there and 
milk the system.  So the bottom line is, no, we do not have a position 
yet because we are still studying where we are at with this thing in 
mind.
  The  Chairman.   All right.  This is coming to us right now.
  Chief McCauslin.   Yes, sir.  Thank you.
  The  Chairman.   So you cannot just study this one to death because - 
I just want you to know this-- the Senate has a position.  They are 
placing pressure upon this Committee to take their position, and I need 
to know.
  Now, obviously you cannot testify outside your lanes, but I just want 
you to know if your association is interested in taking a position, and 
you need to let us know pretty soon.
  Chief McCauslin.   Yes, sir.
  The  Chairman.   All right?
  Chief McCauslin.   Certainly.
  The  Chairman.   Mr. Corbett.
  Sergeant  Corbett.   The legislative agenda of our organization is 
determined by the resolutions passed at our annual convention.  We have 
taken no position on this issue of lawyers representing veterans, sir.
  The  Chairman.   Thank you very much.
  Admiral.
  Admiral  Ryan.   Mr. Chairman, we think that the VSOs have more 
expertise-- I will be up front on that-- than we do as a military 
service organization.  But the reason we are reserving our opinion for 
right now, I think, is the same reason that the Congress ought to 
reserve their opinion, and that is you all do have a higher calling 
here, and that first calling is to do no harm.
  And I am not sure that, if you take the Senate bill you are going to 
do harm, more harm than you are if you keep the lawyer out of that part 
of the process because of two things.
  Number one, the claims process itself really needs to be improved and, 
number two, I think that you have a perfect vehicle to do that with, and 
that is ask the Veterans Disability Benefits Commission to include this 
as part of their analysis as they look at this claims process and what 
can we do to improve it.  It is a perfect place to have people really 
carefully analyze it before we go and make the situation worse rather 
than better.
  And so we are reserving our opinion.  We know that some of the VSOs 
feel very strongly about it in both ways, but we are concerned that 
rushing into this is going to do more harm than good if you all are not 
convinced personally of the way to go.
  The  Chairman.   Mr. Lopez.
  Mr.  Lopez.   Our members automatically have legal counsel because of 
the nature of entrepreneurship.  It is one of the requirements.  So they 
do not look upon this issue in the same way.  So we have no opinion on 
it.
  The  Chairman.   Well, Admiral Ryan, I dealt with you for years when I 
chaired Personnel and negotiated many different provisions which you had 
interest in with the Senate.
  Admiral  Ryan.   Uh-huh.
  The  Chairman.   And I recall sometimes when we came to difficult 
questions in figuring out how to compromise, how to get to yes so 
everybody feels good coming out of the room, DoD, House, Senate, 
Administration.  Sometimes on these questions, you can also sense that, 
right, do those types of things too?  But I am being a good listener to 
your counsel.
  Mr. Filner.
  Mr.  Filner.   Mr. Chairman, since I already gave my opening 
statement.  I hope you will recognize me after my colleagues.  I would 
appreciate that.
  The  Chairman.   Very good.
  Mr. Brown, Chairman Brown.
  Mr.  Brown of South Carolina.   Thank you, Mr. Chairman.
  I would just like to thank the gentlemen for coming and being a part 
of this dialogue, and I will reserve questions.
  The  Chairman.   Mr. Michaud.
  Mr.  Michaud.   Thank you, Mr. Chairman.
  I want to thank the panelists for coming before us.  I just have one 
question if I understood Mr. McCauslin's statement earlier.  He had 
mentioned as far as paying an enrollment fee, the $250 enrollment fee, 
that he is opposed to that proposal, but prospectively might not be 
opposed to it.
  Is that correct?  Do I understand you correctly?
  Chief McCauslin.   That is correct, sir.
  Mr.  Michaud.   How do the other three MSOs feel about that?  I know 
you are opposed to the enrollment fee, but prospectively would you also 
be opposed to an enrollment fee?
  Sergeant  Corbett.   We are opposed to the enrollment fee, the Retired 
Enlisted Association.  It will affect some of our members too much 
because they are living on a fixed income.  They are senior citizens and 
it would definitely, definitely hurt them. 
  Mr.  Michaud.   Even prospectively?
  Sergeant  Corbett.   Yes, sir.
  Admiral  Ryan.   I have not looked that far out, I am embarrassed to 
say, about prospectively.  But we are opposed at this time.  With the 
war going on, we think it sets a terrible signal.  Thank you.
  Mr.  Michaud.   Mr. Lopez.
  Mr.  Lopez.   We have not looked into the issue, so we do not have a 
clear statement to make to you, sir.
  Mr.  Michaud.   Okay.  Thank you.
  I yield back, Mr. Chairman.
  The  Chairman.   Chairman Boozman.
  Mr.  Boozman.   Thank you, Mr. Chairman.
  I really do not have any questions, but I know myself and Ms. Herseth 
really have enjoyed working with you this last year, and we do 
appreciate the input and the very thoughtful input.  And like I said, we 
appreciate you being here.  We appreciate all that you represent.
  A special thanks to the Air Force Sergeants.  My dad was a retired 
Sergeant and we were visiting earlier.  I said that he would be very 
proud of me, and he said, yeah, he'd be proud of you.  I did not mean it 
in that way.  I meant he would be very proud of me that I would be 
standing with the Air Force Sergeant representative and have looked at 
that-- I lost my dad about ten years ago, but have seen that publication 
on his coffee table for many, many years.
  And, again, we appreciate all of the things that you are doing for 
your membership.  Thank you.
  The  Chairman.   Thank you, Chairman Boozman.
  I am equally the proud son of an Army Sergeant.
  Dr. Snyder.
  Mr.  Snyder.   Thank you, Mr. Chairman.
  I just want to make a comment.  The three of you, Mr. McCauslin, Mr. 
Corbett, Admiral Ryan, made very strong and amplified statements about 
the GI Bill and the need for improvements.  And I think there is a lot 
of unity of opinion about that we need to make some major changes to the 
whole GI Bill system both for our veterans, but also for our men and 
women in the Reserve component.
  And Chairman Boozman and I are going to participate in a hearing next 
week on the GI Bill.  And I think Senator Lincoln is going to testify 
also.
  But we have just so many things that we need to work on, and I think 
what has happened over the last several years is you have so many things 
to work on that we do not do anything.  And so as time goes by, the 
benefit has eroded, particularly for our Reserve component, but, 
frankly, for everyone.
  And then the worst provision that I know that you talked about, I 
think, Admiral Ryan, was this problem that we have now with our men and 
women in the Reserve component, the Guard and Reserves.  They get 
activated.  The intent of the current benefit is that they use their GI 
Bill benefit while they are in the Reserves.
  But if they get activated, they are spending three or four or five 
months preparing for service in Iraq, sometimes longer than twelve 
months, they are coming back at the end of their-- if they are at the 
end of their enlistment and they get out, they have no GI Bill benefit.
  The expectation, the way this thing is legislatively designed is 
somehow they would attend the University of Baghdad or something while 
they are in a war zone.  I mean, that is the reality of how that benefit 
is set up, and I think it is unconscionable. 
  But for whatever reasons, it has been difficult to get DoD interested 
in doing something about it.  That is not under the jurisdiction of this 
Committee.  It is in the Armed Services Committee.
  But I am not sure I am very optimistic that Senator Lincoln's 
provision that was attached to the Senate Defense Bill, if that is going 
to make it out of conference.  We should know that in the next two or 
three days.  Hopefully it will.
  It deals with that specific issue, but we have a lot of issues there 
to work on all generated by two things in my view, the increasing cost 
of education and the necessity of participating in that education.
  We could do so much for our country and for our veterans and our men 
and women in uniform if we would really look at improving this benefit 
for both the Guard, Reserve, and the active forces.
  I appreciate your statements which were more than just a brief note.  
You all describe in some detail things that you thought we needed to 
work on.  So we look forward to those discussions.
  Thank you, Mr. Chairman.
  The  Chairman.   Mr. Filner.
  Mr.  Filner.   Thank you.  Mr. Chairman, thank you for following up on 
Mr. Lopez's statement.  It is something that we have not discussed here.
  I think I get it, Mr. Lopez, and I am going to keep it in mind as we 
move forward.  You know, there are attempts to set up Advisory 
Committees, and they do not work very well. There has to be something 
that gives the sense that there is some participation.
  I thank you for bringing that up.  I thank the Chairman for allowing 
that discussion.
  Let me just say to conclude this panel, when we read through your 
written testimony, and I thank you for your expertise which is 
incredible and helps us understand the issues very clearly-- there is a 
unanimity on a lot of issues that should constitute our agenda as a 
Committee.
  Sometimes, as Mr. Lopez says, people feel like they are begging for 
something that is really rightfully theirs.  It costs a lot of money.  
But the saddest thing for me is the sense that as a nation, we have the 
money.  It is a question of priorities.  We have the money.  We are the 
richest nation in the history of the world.
  Our budget this year was three trillion dollars.  The debt that we owe 
as a nation is eight trillion dollars.  The VA gets 80 billion.  Surely 
with all those figures, it is within our ability to provide for our 
veterans.
  We are spending a billion dollars every two and a half days in Iraq.  
As the Chairman said, it is a cost of war to deal with our previous 
gallant fighting men and women.  If we looked at like that, the money 
would be available.
  As Mr. Lopez quoted President Washington that the knowledge of how we 
deal with our veterans is a really important part of the morale of our 
active duty.
  So we are supporting our troops in Iraq if we treat not only the 
servicemembers coming back from Iraq but also those who came back from 
Normandy, et cetera.  We, as a nation, can do this and we can do it in a 
way that involves the people who are affected by it.
  Nobody should feel that they are asking us or begging us.  We should 
beg you for the honor of dealing with those who we made a contract with.  
I hope we get into that way of looking at things.
  You have not asked for too much.  You have asked for what is 
rightfully due the veterans of this nation. I hope this Committee 
responds and this Congress responds.
  Thank you.
  The  Chairman.   Thank you.
  I would like to thank Chairman Boozman and Ranking Member Snyder on 
the House Armed Services Military Personnel Subcommittee, who is also on 
this Committee, for the joint hearing that you are going to do.  And you 
have got great expertise here.
  I think MOAA is planning on testifying, are you not, and NAUS?  
Others, if you get interested, go knocking on their door to be heard.  
So give Chairman Boozman a call. Sorry.
  If there is not room, please prepare your statements and submit them 
for the record.  We are trying to do this.  It took Sonny Montgomery 
seven years to do the GI Bill.  Seven years.
  So I got criticized yesterday by one of the groups in saying, hey, you 
said you would do it, but I have not seen anything.  And I about choked, 
but it is kind of the atmosphere sometimes.
  Chairman Boozman.
  Mr.  Boozman.   Mr. Chairman, Jeff is over there, so they can talk to 
him about whatever their needs are.
  The  Chairman.   All right.  Did you get your home phone number?
  Well, thank you very much for your testimony today. And I do want you 
to know I embraced something.
  Admiral Ryan, you mentioned it.  It is something we all need to 
embrace and this is the issue of the traumatic brain injuries and what 
you saw at the polytrauma centers.  And there is something here that I 
need to understand a little better and it deals with the case referrals.
  They were taking active duty.  They are going into the VA.  The DoD 
then reimburses the VA, but then there are also some patients then that 
do not go into our VA polytrauma centers, but end up in a neurotrauma 
unit in the private sector, then to be reimbursed under TRICARE.
  And I do not completely understand who is getting referred to where 
and why.  And it is something I want to look at, and I invite you also 
to apply your eyes to that one.
  We cannot do all things for all people at every one of these 
polytrauma centers, and so I am hopeful that these case management 
decisions are being made based upon who has what ability to care for 
certain injuries.
  I am sure that is happening.  Maybe it is just having been around this 
town for so long.  I just want to make sure that those decisions are 
being made by competent doctors driving those decisions based on their 
diagnosis as opposed to dollars and budgets and costs.
  So I am going to look into that, and I invite you to put your eyes on 
that one also.  And this one is not going to go away so long as the 
enemy understands that they can hide and still hurt us.  And they have 
killed over a thousand just by these IEDs alone.
  And these blast injuries are something that we really have not been 
able to prepare for and how we care for them not only from the 
protective side with what we are able to put in these helmets but also 
on research and development and then the medical care.
  So I thank you for making that a priority, and we want to work with 
you on that.
  Mr. Bilirakis, do you have any questions of this panel?
  Mr.  Bilirakis.   No.
  The  Chairman.   No?
  Thank you very much for your testimony.  This panel is excused.
  The second panel may come forward.
  Speaking on behalf of the National Association for Uniformed Services 
is retired Major General Bill Matz, the President of NAUS.  He became 
the President of NAUS in January 2005.
  General Matz was an Infantry Company Commander in combat in Vietnam 
where he was wounded in action during the 1969 TET offensive.  He has 
served as a Staff Commander of six Army divisions, as Plans Officer for 
the Pacific Fleet Amphibious Ready to Go Fleet in Panama during 
Operation Just Cause, and Executive Secretary to the Secretary of 
Defense. He also in 2005 was appointed by President Bush to the Veterans 
Disability Commission.
  Representing the National Association of State Directors of Veterans 
Affairs is Mr. Kerwin Miller, the Director.  Mr. Miller was confirmed as 
the first Director of the District of Columbia Office of Veterans' 
Affairs in 2003.
  Mr. Miller completed 28 years of honorable service, active duty, and 
Naval Reserve, retiring as a Naval Reserve Commander.  He was the first 
U.S. Naval Academy graduate to graduate from Howard University School of 
Law.
  Mr. Miller served as an attorney in the Department of Veterans 
Affairs' Office of General Counsel from 1989 to 1998, and received the 
Secretary of Veterans' Affairs Outstanding Volunteer Award, as well as 
the Special Contributions Award.  In 2005, he was appointed to the VA's 
12-member Advisory Committee on Minority Veterans.
  Testifying on behalf of the Commander, the American Ex- Prisoners of 
War, Gerald Harvey, is Les Jackson, Executive Director of the 
Washington, D.C. office.
  Mr. Jackson has been serving as the Executive Director of the American 
Ex-Prisoners of War since April 2001.  He qualified for membership on 
April 24th, 1944, after being captured by no fewer than 200 of Hitler's 
Army recruits from a basic training camp only a few hundred yards away 
from where his V-17 happened to make a crash landing.
  Representing the National Association of County Veterans Service 
Officers is Darlene McMartin, the First Vice President and Second Vice 
President, Secretary, and Treasurer of that association which she has 
served in the past.
  Ms. McMartin served in the United States Army as a member of the 
Military Police from 1975 to 1977.  She was past First Vice President of 
the Iowa Association of County Commissioners of Veterans Affairs and has 
served as 7th District Director and President.  In May 2004, she was 
appointed by the Governor of Iowa as the State Commissioner for the Iowa 
Department of Veterans Affairs.
  Ms.  McMartin is a member of the Walnut Iowa AM-VETs Post 45 and is a 
member of Hancock American Legion Post 720 and Auxiliary Post 720 in 
which she serves as President of the Auxiliary.  She is a lifetime 
member of the Disabled American Veterans and Vietnam Veterans of America 
as an associate member.
  Our final panelist is the National Commander of the Jewish War 
Veterans of the United States of America, Norman Rosenshein, a member 
since 1970.  He has held all the post's offices in Post 63 in Elizabeth, 
New Jersey.  He has served in the United States Army from 1964 to 1966 
on active duty and 1966 to 1970 in standby Reserve.
  He was a Specialist Fourth Class and night supervisor for the 
Quartermaster School television station at Fort Lee. That is 
interesting.  He has worked for CBS television and United Video and in 
1993 started his own business in television wiring design.
  In addition to the Jewish War Veterans, he is Vice President of his 
congregation and a member of The American Legion Post 6 of Elizabeth and 
Vietnam Veterans of America Chapter 779.
  Do all of you have written testimony that you would like to be 
submitted for the record?
  Mr. Jackson, do you have testimony you would like to be submitted for 
the record?  Do you have written testimony, Mr. Jackson?  Do you have 
written testimony, Mr. Jackson?
  Mr.  Jackson.   I have not submitted it yet.
  The  Chairman.   All acknowledge in the affirmative. Without 
objection, so ordered.  All of your written testimony will be submitted 
for the record.
  Each of you will be recognized for ten minutes, and the Chair will 
grant latitude to you just as I exercised courtesy of your fellow 
members on the panel.  And the members will abide by the five-minute 
rule.
  Mr. Jackson, you are now recognized.
STATEMENTS OF GERALD HARVEY, NATIONAL COMMANDER, AMERICAN EX-PRISONERS 
OF WAR PRESENTED BY LES JACKSON, EXECUTIVE DIRECTOR, AMERICAN EX-
PRISONERS OF WAR; KERWIN MILLER, DIRECTOR, WASHINGTON, D.C. OFFICE, 
NATIONAL ASSOCIATION OF STATE DIRECTORS OF VETERANS AFFAIRS; WILLIAM M. 
MATZ, PRESIDENT, NATIONAL ASSOCIATION FOR UNIFORMED SERVICES; DARLENE 
MCMARTIN, FIRST VICE PRESIDENT, NATIONAL ASSOCIATION OF COUNTY VETERANS 
SERVICE OFFICERS; NORMAN ROSENSHEIN, NATIONAL COMMANDER, JEWISH WAR 
VETERANS OF THE USA

STATEMENT OF GERALD HARVEY

  Mr.  Jackson.   I want to apologize up front.  I may be stumbling over 
my words, and I ask that you please bear with me.  My macular 
degeneration is progressing.
  Chairman Buyer, Ranking Member Filner, distinguished members of the 
House of Veterans' Affairs Committee, and guests, we welcome the 
opportunity to again speak on behalf of the American Ex-Prisoners of 
War.  We are grateful for what Congress and the VA have done for former 
prisoners of war.
  Over the past 30 years, many presumptives were established to simplify 
the process for which POWs could obtain needed disability benefits and 
medical care.  The ongoing research conducted by the National Academy of 
Sciences provided the basis for these Congressional and VA actions.
  At present, most of the long-term health problems causally associated 
with the brutal and inhuman treatment of captivity have been identified 
and made presumptives.
  We urge Congress to act on the several remaining medical conditions 
identified currently in current legislation.  The first of these is 
chronic liver disease, simply a clarification of a current presumptive, 
cirrhosis of the liver.  The National Academy of Sciences has stated in 
writing this has more accurately reflected their findings.  Cirrhosis is 
simply the final stages of liver disease.
  The second is diabetes.  It has already been established for Vietnam 
veterans exposed to certain chemicals and other factors.  POWs were 
similarly exposed to adverse factors in captivity and are causally 
related to diabetes.
  Third, osteoporosis.  This is directly related to the absence of 
calcium needed to maintain bone structure, a common situation amongst 
POWs.  This condition becomes apparent with a bone break.  Adjudicators 
typically decide these cases for POWs.  Making it a presumptive 
simplifies the process for the adjudicators and the POWs alike.
  House Resolution 1598 introduced by Representative Michael Bilirakis 
and Senate 1271 introduced by Senator Patty Murray cover these 
presumptives.  We call to your attention that there is virtually no 
increase in the cost of any of these presumptives.  Costs are more than 
offset by the rapidly diminishing numbers of POWs already on the 
disability rolls.
  Other legislation that ex-POWs consider high priority. Senator Harry 
Reid introduced Senate 2385 known as the Combat Related Special 
Compensation Act.  Representative Michael Bilirakis, a long-time 
advocate of concurrent receipt legislation, previously introduced the 
companion bill House Resolution 1366 in the House.  It is currently 
before the Armed Services Committee.
  This legislation will amend that part of Combat Related Special 
Compensation Act, Chapter 61 of the Defense Authorization Act of-- it is 
going to amend it to an earlier date of January 1, 2006.
  With the current effective date of 2014 and their current advanced 
age, it is a statistical probability that World War II military retirees 
will not live to receive any of this compensation.
  Representative Bob Filner introduced House Resolution 2369 to provide 
for the Purple Heart to be awarded to prisoners of war who die in 
captivity.  We ask the Committee to give their full support to these 
bills.
  In closing, I want to again express our deep appreciation for 
identifying POWs as a high priority and worthy group of the veteran 
population.
  We are also grateful for VA's ongoing efforts to identify every POW 
and take the next step in getting them processed for applicable VA 
benefits by adjudicators specifically trained to handle POW claims.
  Thank you.
  The  Chairman.   Thank you, Mr. Jackson.
  [The statement of Gerald Harvey appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

  The  Chairman.   Mr. Miller. 

STATEMENT OF KERWIN MILLER

  Mr.  Miller.   Good afternoon, Mr. Chairman and distinguished members 
of the Committee.
  As a member of the National Association of State Directors of Veterans 
Affairs, NASDVA, I thank you for the opportunity to testify and present 
the views of the 55 State Directors who represent all 26 million 
veterans in this country and around the world.
  As the nation's second largest provider for services to veterans, 
state governments' role continues to grow.  We believe it is essential 
for Congress to understand the role and ensure we have the resources to 
carry out our responsibilities.
  We partner very closely with the federal government in order to best 
serve our veterans and as partners, we are continually striving to be 
more efficient in delivering services to veterans.
  We greatly appreciate the leadership of Chairman Buyer and Ranking 
Member Evans and the entire membership of the House VA Committee for 
their past support of building upon the Administration's budget and hope 
that it continues.
  Because of the War on Terror, we are now serving a new generation of 
veterans.  They are going to need our help as they return to civilian 
life.  We believe, therefore, that there will be an increased demand for 
certain benefits and services and the overall level of healthcare 
funding proposed by the Administration must meet that demand while 
continuing to serve those veterans already under VA care.
  NASDVA supports the Capital Asset Realignment for Enhanced Services, 
CARES, process.  We were generally pleased with the report and 
recommendations made in the final plan.  We also support the process for 
planning at the remaining 18 sites and the direction it will move VA as 
a national system.  We urge that capital funding required for 
implementation be included over a reasonable period of time to enable 
these recommendations to be realized.
  NASDVA supports the opening of additional Community- Based Outpatient 
Clinics, CBOCs.  We would like to see the new priority CBOCs deployed 
rapidly with appropriate VA medical center funding.
  Continued development of CBOCs has greatly improved veterans' access 
to all VA healthcare.  We continue to encourage rapid deployment of new 
priority clinics over the next few years with the corresponding budget 
support to the VAMCs.  VA needs to quickly develop these additional 
clinics to include mental health services.
  We encourage the investment of capital funding to support the many 
projects recommended by CARES.  We support VA contracting out some 
specialty care to private-sector facilities where access is difficult.
  Likewise, we would like to see the process continue in fiscal year 
2007 with sufficient funding in the budget. CBOCs provide better access, 
leading to better preventative care, which better serves our veterans.
  NASDVA recommends an in-depth examination of long-term care and mental 
health services.  The CARES Commission review did not include long-term 
care or mental health services, but did recommend further study of both 
areas.  To that end, we again ask that a study be done to thoroughly 
examine veterans' long-term care and continue the study currently being 
done on mental healthcare needs to include gap analysis, clearly 
identifying where services are lacking.
  NASDVA continues its strong support for state home construction grant 
programs.  The annual appropriation for this program should be continued 
and increased.  Based on the reduction in funding in fiscal year 2006, 
we recommend that the amount in fiscal year 2007 be increased to $115 
million.  Reranking of projects should be eliminated once a project is 
established as a priority group one.
  The VA has changed the procedures for allocating state home 
construction money.  The theory is that by allowing partial payments on 
projects, the life safety projects applied for, will not be overlooked 
and will, therefore, allow other projects to proceed.  The real issue is 
the amount of money appropriated in light of the amount of projects 
applied for.
  Currently the Senate has included 85 million in its version of the 
budget and the House has included $105 million.  The backlog of 
applications, however, exceeds $800 million and grows annually.
  This year is vital to raise the appropriation as much as possible when 
the Committees conference and also to request an increased appropriation 
in following years.
  The success of VA's efforts to meet the current and future long-term 
care needs of veterans is contingent upon resolving the current mismatch 
between demand and available funding.  We recommend this issue be 
included in any long- term care study undertaking.
  NASDVA supports full reimbursement for care in state veteran homes for 
veterans who have a 70 percent or more service-connected disability or 
who require nursing home care because of service-connected disability.
  Full reimbursement for cost of care for qualifying veterans in service 
veterans homes.  The November 1999 Millennium Act requires VA to provide 
nursing care to those veterans who have a 70 percent or more service-
connected disability or who require nursing home care because of a 
service-connected disability.
  VA provides nursing home services through three national programs, VA 
owned and operated nursing homes, service veteran homes owned and 
operated by the State, and contract community nursing homes.
  VA general counsel interpretation of the law allows only contract 
community facilities to be reimbursed for full-time cost of care.  The 
service veteran homes merely receive per diem towards the cost of care, 
requiring the veteran to make a co-payment.  This is unfair for those 
veterans who are eligible for full cost of care, but prefer to reside in 
a service veteran home.
  NASDVA supports increasing per diem to provide one-half of the 
national average annualized cost of care in a service veteran home.  
Currently law allows VA to pay per diem up to one-half of the cost of 
care each day a veteran is in a service veteran home.
  However, in first quarter of fiscal year 2005, VA per diem amounted to 
only 31 percent of the average daily cost of nursing home care, which 
was $185.56.  Only 25 percent of that average daily cost of domiciliary 
care, $119.94, in an SVH.
  We ask that per diem for both programs be increased to one-half of the 
national average annualized cost of providing care as the service 
veteran home program is the most effective nursing care alternative used 
by VA.
  NASDVA also supports VA Medicare subvention.  We recommend a veterans' 
medication purchase option be implemented for priority group seven and 
eight enrollees who also seek to have medications.  We request continued 
protection of the Federal Supply System for VA and DoD pharmaceuticals.
  NASDVA also supports continued efforts to reach out to veterans.  
There should be a partnership between VA and the State Departments of 
Veterans Affairs.  While growth has occurred in VA healthcare due to 
improved access to CBOCs, many of the areas of the country are still 
short-changed due to geographic and/or due to veterans' lack of 
information and an awareness of their benefits.  VA and SDVAs must 
reduce this inequity by reaching out to veterans regarding their rights 
and entitlements.
  NASDVA supports implementation of a grant program that would allow VA 
to partner with SDVAs to perform outreach at the local level.  There is 
no excuse for veterans not receiving benefits to which they are entitled 
simply because they are unaware of these benefits.
  NASDVA strongly supports an adequate level of funding to allow VBA to 
keep pace with the rising backlog of claims. Veterans are now filing a 
higher percentage of claims than the earlier conflicts and those claims 
have a great number of cases and issues.  The backlog continues to grow 
and with the continued deployments to combat theaters, there is no 
expectation that the number will drop.
  NASDVA also supports consideration of a greater role for SDVAs in the 
overall effort to manage and administer claims processing regardless of 
whether the State uses State employees, veterans service organizations, 
and/or county veteran service officers. 
  NASDVA strongly supports passage of legislation to eliminate the time-
phased concurrent receipt of military retirement pay and service-
connected disability compensation.
  We also recommend an increase in the plot allowance to all veterans to 
$1,000 per interment.  We strongly support an increase in funding for 
the State Cemetery Grant Program. New federal/state national cemetery 
grant programs could be established to support State costs.
  NASDVA supports efforts to diminish the national disgrace of 
homelessness among veterans.  SDVAs would prefer an active role in 
allocating and distributing per diem grants for homeless veterans to 
nonprofit organizations which would ensure greater coordination, fiscal 
responsibility, accountability, and local oversight of the services 
provided.
  NASDVA strongly supports improving upon and providing seamless 
transition to help our servicemembers transition into civilian life.
  Mr. Chairman and distinguished members of the Committee, we respect 
the important work that you have done to improve supporting the veterans 
who have answered the call to serve our nation.
  NASDVA remains dedicated to doing our part, but we urge you to be 
mindful of the increasing financial challenge that states face just as 
you address the fiscal challenge at the federal level.
  We are dedicated to our partnership with the VA in the delivery of 
services and care to our nation's veterans.
  This concludes my testimony.  I stand ready to answer any questions 
you may have.  Thank you.
  The  Chairman.   Thank you, Mr. Miller.
  [The statement of Kerwin Miller appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

  The  Chairman.   General Matz, you are now recognized.
STATEMENT OF WILLIAM M. MATZ

  General  Matz.   Chairman Buyer, Acting Ranking Member Filner, and 
members of the Committee, on behalf of the nationwide membership of the 
National Association for Uniformed Services, I am pleased to present our 
views on the current fiscal year and also to look ahead to the upcoming 
year on the programs and policies of, in particular, the Department of 
Veterans Affairs.
  NAUS firmly believes that despite the funding increases over the 
recent past that our VA medical care facilities continue to face serious 
challenges both due to medical inflation and the rising numbers of 
veterans seeking care within the VA system.  And, of course, as my 
colleagues indicated, there are also many budget challenges facing VA's 
Claims Administration as well.
  We believe that the answer to the budget challenge must come from 
consistent, well-grounded, common-sense decisions made to scour the 
entire budget and find the resources to fund our highest priority needs.  
And so it was heartwarming for me to hear from Congressman Filner that 
it is a question of priorities, the money is there.
  Regarding VA healthcare, as we look back over the past year, we are 
pleased to see that the challenge to fund the underfunded Department of 
Veterans Affairs did not rely on out-of-pocket healthcare expenses for 
many veterans.  The leadership of this Committee took action to 
recognize that asking sick and disabled veterans to pay for their own 
healthcare is not the acceptable answer for the VA funding problems.  
The answer to the challenge is to fund the Department so veterans have 
access to quality healthcare.
  Recently VA presented information that the waiting list for first-time 
appointments with VA doctors had fallen to manageable levels.  However, 
improvements in this area of concern did not necessarily tell the whole 
story.
  Veterans who have already had their first doctor's appointment are not 
part of that calculation.  Many of these veterans tell us, and as I have 
had the opportunity to get out with the Veterans Disability Commission, 
that they are waiting up to nine months for some surgical procedures and 
specialty care.  And, folks, we all know we can do better than that and 
we should.
  Mr. Chairman, NAUS appreciates your work in the bipartisan push to 
better fund veterans' healthcare and benefits in the coming fiscal year.  
Rejecting the fees and the new challenges for veterans and spending more 
on care for those returning from battles is warmly welcomed by NAUS.
  Prescription drug assistance, Mr. Chairman, we are disappointed that 
little consideration has been given to those veterans who have been 
prohibited from enrollment in VA's healthcare system under the decision 
made by the Secretary on 17 January 2003.
  Enrolled veterans can obtain prescriptions, as you are very well 
aware, paying $8.00 for each 30-day supply. However, veterans not 
enrolled for care before January 2003 are clearly denied an earned 
benefit that similarly situated enrolled veterans are able to use now.
  What we recommend is to give Medicare eligible veterans currently 
banned from the system and paying the higher retail prices or using the 
newly established Part D Program access to the same discount provided VA 
in their purchase of prescriptions.
  The  Chairman.   Say that again.
  General  Matz.   What we recommend, sir, is to give the Medicare 
eligible veterans that are currently banned from the system and paying 
the higher retail prices or using this newly established Part D Program 
access to the same discount provided VA in the purchase of 
prescriptions.
  The  Chairman.   Go ahead.
  General  Matz.   This situation would be a win-win situation.  It 
would provide the discount.  It would not cost the government a cent, 
and Medicare eligible patients would pay the same price the VA pays.
  The  Chairman.   You want to do that for all veterans?
  General  Matz.   Yes, and those veterans would see value returned in 
the benefit each earned through military service.
  The disability claims backlog, sir, NAUS strongly supports efforts to 
find a solution to the rising backlog in claims processing.  Veterans 
coming home from the war, I think we would all agree, deserve quick 
response to their claims.
  Unfortunately, despite VA's best efforts to deliver benefits to 
entitled veterans, the workload of the Veterans Benefits Administration 
continues to increase.  And, in fact, I think as we all pointed out, VBA 
is falling further behind in this area.
  And as of September 9th, VBA had 598,000 compensation and pension 
claims pending decision, and this is an increase, according to our 
calculation and VA's own, of nearly 90,000 from this time just last 
year.
  In addition, nearly 25 percent of those pending claims have been in 
the VA system for more than 180 days. This accumulation of claims within 
the system, I know we would all agree, is clearly unacceptable.
  Congress and the Administration need to provide a stronger VA budget 
for the hiring and the training of claims adjudicators and the 
investment in the appropriate technology to overcome this backlog and 
get the program back on track.
  Regarding the Montgomery GI Bill, NAUS shares a keen interest in 
consideration of a total force framework for a new GI Bill for education 
to include the members of the Guard and the Reserve.  We endorse clearly 
a total force approach that meets the needs for all those who wear the 
uniform.
  And as the members of the Committee know, there is a growing disparity 
between Reserve and active duty programs simply because we believe 
Reserve benefits under Title 10 are often neglected when program 
improvements are made in the active duty Title 38 program.
  While the upgrade to a total force Montgomery GI Bill might be 
complex, NAUS, as I believe one of my colleagues stated earlier, as a 
start that Congress act to place the Guard and the Reserve educational 
benefits within the Title 38 GI Bills.  Taking this action would 
increase the visibility of these earned benefits and it would certainly 
help move the Guard and the Reserve education benefits toward the equity 
of treatment deserved.
  Regarding seamless transition, over the past year, the House Veterans' 
Affairs Committee has developed an excellent record of oversight on 
administrative efforts to improve the seamless transition of benefits 
and services for servicemembers as they leave military service and 
become veterans.
  And while the GAO reports, just the recent one in June, that DoD and 
VA have taken a number of positive steps to increase awareness on the 
medical records of servicemembers wounded in these battle operations, it 
also reports that VA continues to have difficulties gathering real-time 
information from DoD medical facilities.
  Now, I would say, sir, that while DoD and VA, are beginning to make 
some effort in sharing this electronic health information, much work, as 
you know, remains to be done.  And I would submit based on what we hear 
from the people who come before our Commission and what I hear from my 
own members, particularly in the sharing of inpatient documentation, and 
we are encouraged to see that the transfer of inpatient documentation 
has, in fact, begun.
  We are told that soon the DoD and the VA biodirectional health 
information exchange will be able to access information stored in ALTA, 
which, as you know, is DoD's digitalized medical system, and make it 
available to VA.
  So we are pleased that the two departments appear to be working to 
ensure the sharing of health information both DoD and VA-wide, but we 
encourage this Committee as you have in the past to keep the pressure on 
them, actually on both these departments.
  Concerning research, sir, as Congress moves forward in consideration 
of its veterans' research requirements, NAUS encourages a strong effort 
to see that critical funding is provided for the VA mission to conduct 
medical research, especially in the area of traumatic brain injury, 
spinal cord injuries, blindness, and the prosthetic research.
  It is essential that research be conducted to guide treatment and 
rehabilitation for these individuals with the polytrauma injuries.  VA 
medical and prosthetic research programs have played a key role in 
meeting the current and future health challenges facing veterans with 
disabling injuries.
  Clearly VA must also make research and treatment of brain injuries as 
a high priority.  And we agree with members of this Committee that VA 
needs to develop better procedures to screen and treat returning 
veterans who have brain injury.
  As well, care for our troops with limb loss is also a matter of 
national concern.  And so to meet the challenge, VA research must be 
adequately funded to continue its intent on treatment of troops 
surviving this war with grievous injuries.
  The research program also requires funding for continued development 
of advanced prostheses that will focus on the use of prosthetics with 
microprocessors that will perform more like the natural limb.
  Concerning post traumatic stress disorder, NAUS supports a higher 
priority for VA care of troops demonstrating symptoms of mental health 
disorders and the treatment for PTSD.
  The cost of living adjustments, sir, NAUS is pleased to see that the 
House vote of 408 to zero in June to provide a COLA to 209 million 
service-connected veterans and survivors.  This COLA, as you know, 
provided every year since 1976 will prevent the inflation from eroding 
disability compensation and dependency and indemnity compensation that 
so many of our veterans and their survivors rely on.
  Respect for the Fallen Heros Act, I would like to mention this.  NAUS 
deeply appreciates this Committee's efforts in the passage of 
legislation to stop these protestors from trying to disrupt military 
funeral services. The action was prompted by a series of protests where 
demonstrators yelled at mourners and made harassing comments about the 
U.S. Military.  And NAUS was pleased to support enactment of this 
measure.
  Finally, my last point here, NAUS continues its support of legislation 
to authorize Medicare reimbursement for healthcare services provided 
Medicare eligible veterans in VA facilities.  Medicare subvention will 
benefit veterans, taxpayers and the VA.  And so we encourage the 
Committee to just closely review permitting Medicare eligible veterans 
to use their Medicare entitlement for care at local VA medical 
facilities.
  Mr. Chairman, you and your Committee members, are making great 
progress.  We thank you for your efforts and we thank you for this 
opportunity to come before you today and give you our concerns as to 
what we did this past year and what we should look at in the future.
  Thank you.
  The  Chairman.   Thank you, General Matz.
  [The statement of General Matz appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

  The  Chairman.   Ms. McMartin, you are now recognized.
STATEMENT OF DARLENE MCMARTIN

  Ms.  McMartin.   Mr. Chairman, members of the Committee, it is truly 
my honor to be able to present this testimony before your Committee.
  As First Vice President of the National Association of County Veterans 
Service Officers, I am commenting on the past veterans' legislative 
efforts by the National Association of County Veterans Service Officers 
and the upcoming year and suggestions for improvements in veterans' 
affairs.
  The National Association of County Veterans Service Officers is an 
organization made up of local government employees.  Our members are 
tasked with assisting veterans in developing and submitting their claims 
to the DVA for adjudication.
  We exist to serve veterans and partner with the national service 
organizations and the United States Department of Veterans Affairs to 
serve veterans.  Our association focuses on outreach, standardized 
quality training, and claims development.  We are an extension or arm of 
government not unlike the VA itself in service to the nation's veterans 
and their dependents.
  The past legislative session, over the past five years, as in the five 
years prior, the National Association of County Veterans Service 
Officers has concentrated on legislation that would assist the 
Department of Veteran Affairs with claims development and the inventory 
of pending claims.
  We fully supported House Resolution 4264, the Veterans Outreach 
Improvement Act of 2005 by Congressman McIntyre of North Carolina, and 
its companion bill Senate 1990 by Senator Burr of North Carolina.
  There are other bills such as House Resolution 4355, the Rural 
Veterans Services Outreach and Training Act by Congressman Wu of Oregon 
that we believe to be on the right track to improve services to our 
great nation's veterans. We believe that legislation such as this is 
what is needed to reduce the backlog of veterans' claims that has 
continued to grow in spite of valiant effort of the Department of 
Affairs.
  In 2002, the National Association of County Veterans Service Officers 
testified before the House Subcommittee on Veterans Benefits that 
veterans are dying while waiting for their claims to be adjudicated.  
Sadly, this is still going on.  The saddest circumstance is that it is 
needless and it can be changed for the better.
  The relationship between the Department of Veterans Affairs and the 
County Service Officers throughout our great nation has traditionally 
been professional and mutually advantageous and has developed into a 
partnership benefiting the nation's veterans.
  The DVA has assisted the CVSOs in providing limited training 
opportunities and access to information the DVA holds on our mutual 
clients.  By a large majority of disability and pension claims, the CVSO 
serves as the primary entry point nationwide for the local veteran to 
access services offered by the DVA.
  Most veterans view the local CVSO as the VA and do not realize the DVA 
and the CVSO are not one in the same.  And in many ways, we are the VA 
to our communities.
  NACVSO sees the role of the County Veterans Service Officer as one of 
advocacy and claims development in concert with the veteran or dependent 
at that grass-roots level. Our members sit across the desk from the 
veterans every day. Because of this direct access to our veterans, we 
believe we are in the position to assist the DVA in claims development 
in an unprecedented way as set forth in House Resolution 616 introduced 
by Congressman Baca in 2005.
  NACVSO believes that developing a fast-tracking method for submission 
of fully-developed claims eases the burden on the DVA's inventory of 
pending claims.  And NACVSO believes that a pilot program as outlined in 
House Resolution 616 would provide relief to the astronomical number of 
veterans waiting processing around the nation.
  The process begins with a face-to-face, in-depth interview between the 
veteran and the CVSO.  This initial interview accomplishes many things.  
It builds a trust between the veteran and the CVSO and it provides the 
veteran with a basic understanding of how the DVA system works.
  We believe that this division of responsibility between two arms of 
government, the federal and the local, benefit the veteran, the CVSO, 
and the DVA, and has the potential to provide clearer understanding for 
the veteran of the process of the claims development and how the DVA 
system works.
  The current and the next legislative session, the future of veterans' 
services is in developing the partnership between the NACVSO, the SDVA, 
the national service organizations, and the VA.  It is the most 
important legislation Congress can pass for the veterans and dependents 
that are eligible for veterans' benefits.
  The CVSOs play a vital role in the veterans advocacy system.  The VSO 
relationship we would subscribe to would be a full partnership and 
cooperation between the VA and all VSOs.  The local CVSO is the closest 
to the veteran and dependent, and with funding from the VA, the CVSO 
would provide services to an increased number of possible beneficiaries.
  NACVSO is capable of providing an out-stationed network of over 3,000 
FTE to develop well-documented and ready-to- rate claims, help defer 
frivolous claims, and increase veterans' satisfaction by providing 
timely claim status to the veteran.
  Local grants to County Veterans Service Officers to enhance outreach 
to veterans and their dependents would also ensure the quality of 
training provided to the CVSO meets the highest standards.
  NACVSO is available and has the capability to assume the role of 
manager and develop tracking and payment controls as defined by the 
grant or administrative claiming program guidelines.
  Outreach, outreach efforts must be expanded in order to reach those 
veterans and dependents that are unaware of their benefits and bring 
them into the system.  Nearly two million poor veterans or their 
impoverished widows are likely missing out on as much as 22 billion in 
pensions from the U.S. government.  NACVSO believes that we must do 
better.
  The total number of pension cases fell to 541,000 in fiscal year 2005, 
the sixth straight year of declines.  The VA's actuary's office report 
obtained by Knight Ridder predicts that pension participation is likely 
to drop further, losing between 7,000 and 8,000 enrollees a year. At the 
same time, the separate 2004 report estimated that an additional 853,000 
veterans and 1.1 million survivors, generally the widows, could get the 
pension but don't.  It is obvious that there is a great need for 
outreach into the veterans' community.
  We are already present in most communities and stand ready to do our 
part to assist the Department of Veteran Affairs in this monumental 
task.
  Standardized or minimal training requirements, there have already been 
some discussions by the VA on this topic. This discussion on the 
development of training standards must be moved to the front burner.  
NACVSO has been an advocate for standardized training for claims 
development. Every veteran should have the right to expect whoever is 
helping them is adequately trained and is giving them the very best of 
assistance.
  The  Chairman.   Can you summarize, please.
  Ms.  McMartin.   Okay.  The latest Monday Morning Report showed there 
were 595,512 veterans' C&P claims pending WIPP.  This is an increase of 
over 87,000 claims in one year.  It is unacceptable and it causes an 
undue burden on the claimant.
  There are two methods to consider in reducing the amount of claims 
pending in WIPP.  One method is to hire and train significantly more 
development clerks, adjudicators, and raters.  This would be a costly 
avenue to pursue and would take two to four years to be fully effective.
  The most cost-effective way to work down the backlog is to have the VA 
employees spend less time on each claim.  How can that be accomplished?  
By the Department of Veteran Affairs in partnership with the NACVSO and 
the VSO making a serious effort in providing in-depth training and 
guidance of true claims development.
  Any rating officer will tell you that it is a pleasure to receive a 
new claim that is fully developed, and the National Association of 
County Veterans Service Officers stands ready, willing, and able to 
assist the VA in developing, piloting, and evaluating the implementation 
of a professional claims development course.
  Mr. Chairman, I thank you for this opportunity.
  The  Chairman.   Thank you.
  [The statement of Darlene McMartin appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

  The  Chairman.   We have a real challenge.  We have got four votes 
facing us.
  What I hope to do here is, Mr. Rosenshein, your testimony has been 
submitted for the record and if you could give us a summary, give us a 
quick five minutes, it would be absolutely wonderful, so you do not have 
to hang around and we could then conclude the hearing.  
STATEMENT OF NORMAN ROSENSHEIN

  Mr.  Rosenshein.   Okay.  Well, thank you.  Good afternoon, Chairman 
Buyer, Ranking Member Filner.  My testimony is there, so I will narrow 
it down.
  The basic issues that we have, including what is listed, as everyone 
knows, that we have a multi billion dollar shortfall and the present 
budget asks you to use this year's budget-- 
  The  Chairman.   Can you pull the mike a little closer to you, please.  
Thank you.
  Mr.  Rosenshein.   Okay?  With returning soldiers and demobilized 
soldiers, the needs for care will be rising. And even the veterans from 
groups World War II, Korea, and Vietnam or our Gulf War veterans are 
going to cause our needs to go up, not decrease.
  We have seen new kinds of care for all levels of veterans, some 
extreme physical wounds that now require long-term care and 
rehabilitation.  Soldiers are surviving from major injuries that now 
require extensive care.
  These items are causing us to need more money, and we, as Congressman 
Filner just mentioned, prefer not to beg.  We would like this to be done 
in a mandatory funding method.
  We have a different kind of veteran returning from active duty today 
than we did before.  We have Reservists and National Guard who have just 
gone through active service and are returning to their families.  The 
National Guard and Reservists are now ranging in age from 21 to 60.
  The needs of a 21-year old returning and the needs of 60-year-old 
returning are very different.  We have not truly addressed how we will 
change the care they get.  Both from a mental point of view and from a 
physical point of view, their needs are very, very different.
  The present care allocated for women's veterans is totally inadequate 
to support the 15 percent of active and returning veterans.  At the 
present time, there are over 400 wounded female veterans.  Doctors, 
staff, and facilities have to be made available for these veterans on an 
equal basis.
  In addition, the Veterans Administration medical research, which has 
been one of the greatest arms of the VA from its inception, needs to 
continue to get funds, not less.  There is no question that this 
research fund is what developed all medical things across the country.
  The only way this is going to be done from our feeling is to have 
joint hearings in the spring so we can go over the recommendations that 
we need.
  Since time is short, I want to thank first Ranking Member Lane Evans 
and Mr. Bilirakis for their many years of service and hopefully will 
continue with yours.
  Mr. Chairman, thank you.  And, again, I want to thank you for the 
opportunity for appearing here.  And I hope that was short enough for 
you.
  The  Chairman.   You will receive the Brevity Award. Thank you.
  [The statement of Norman Rosenshein appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

  The  Chairman.   Real quick question, so we will try to go through 
this.  Let me know whether your organization has taken a position on the 
attorney representation issue within the claims process.
  Mr. Jackson.
  Mr.  Jackson.   We have no position.
  The  Chairman.   No position.
  Mr. Miller.
  Mr.  Miller.   We have taken no official position.
  The  Chairman.   Thank you.
  General Matz.
  General  Matz.   Sir, we do not have an association position, but let 
me just-- we-- 
  The  Chairman.   Hold on.
  General   Matz.   --me and my staff would believe--
  The  Chairman.   Hold on to your thought.
  General  Matz.   Beg your pardon?
  The  Chairman.   Ms. McMartin.
  Hold on to that thought.  
  Ms.  McMartin.   Yes, we have an official position.
  The  Chairman.   And it is what?
  Ms.  McMartin.   We state the veterans have a right to choose who will 
represent their claim to the VA, but it becomes a question of when is 
the right time for them to get an attorney.
  The  Chairman.   That is exactly what we are faced with, at the 
beginning or-- 
  Ms.  McMartin.   We feel that it should be at the point when the 
veteran's claim is docketed with the BVA.  When they receive the docket 
number, then at that point in time would be the best time for an 
attorney to be involved.
  The  Chairman.   When they receive the docket?  Yes.
  What about if you took the Evans approach on the notice of 
disagreement?
  Ms.  McMartin.   I believe it can be handled by the DRO.  It still can 
be handled in the local jurisdiction.  It should as long as-- 
  The  Chairman.   You think the docketing is the trigger?
  Ms.  McMartin.   --the local jurisdiction at the RO, we believe it 
should be handled by the CVSO, the VSO.  At the point of it leaving and 
being docketed with the BVA, that is when an attorney should be 
involved.
  The  Chairman.   Thank you.
  Mr. Rosenshein.
  Mr.  Rosenshein.   Yes.  Our organization has a resolution we passed 
in favor of lawyers representing them. However, what we have requested 
in our resolution is that the lawyers be fully qualified which means 
some type of method to qualify that they truly understand the needs of 
the veteran as opposed to anyone going in.  But we want it open to all 
veterans.
  The  Chairman.   Would you please submit that resolution to the 
Committee?
  Mr.  Rosenshein.   Yes, I will.
  The  Chairman.   General Matz, you had an afterthought.
  General  Matz.   My afterthought was our staff has just looked at 
this, sir, and I would just tell you from the staff point, it is not an 
association position.  I was not prepared to give that.
  And, frankly, we have not heard any real concern from our members on 
this.  I believe it would be better for VA to remain an advocate, a 
champion helping veterans, and not get into the attorney adversarial 
relationship that might come down the road.
  The  Chairman.   Do you have an opinion on Admiral Ryan's 
recommendation since you are a member of the, Claims Commission, for us 
to defer and wait until you all take a look at this?  Are you looking at 
this issue?
  General  Matz.   I agree with that.  I agree we should do that, and 
that is one of our points in the Commission.
  The  Chairman.   Mr. Filner.
  Mr.  Filner.   Well, we have seven minutes left, so we cannot really 
go into very much.
  But, you know, I have oftentimes been concerned that many of the 
problems lie and the delays lie through inadequately prepared claims, 
which means basically getting the service officers involved a lot 
earlier.
  When we know that about 85 percent of veterans or maybe even more are 
not members of any of the service organizations, how do we get to those 
85 percent and try to get as many of them coming in even though they do 
not belong to the VFW, et cetera, have them come to the VFW or whomever 
for assistance with their claims?
  Frankly, off the top of my head, I think that goes closer to the 
solution than getting an attorney involved. Having said that, I would 
yield back, Mr. Chairman.
  The  Chairman.   Chairman Boozman.
  Mr.  Boozman.   Do you have any opinions again based on the attorney, 
not on the attorney, but about providing perhaps better education for 
those that are giving guidance?
  Ms.  McMartin.   The Department of Veteran Affairs went into 
partnership with the NSDVA at the New York office with George Basher.  
They had a pilot program to where they utilized claims development, 
fully developed claims through an education program, and that was a very 
successful program because they fully developed those claims and those 
claims went through quicker, faster, were fully more developed. There 
was no need to get any other adversarial partner involved in that.
  And if we get that education and training to all of our CVSOs out 
there, that would help the DVA work their claims, get them in quicker.  
They would know they were fully developed when they received them, and 
it would speed up the process tremendously.
  The  Chairman.   Ma'am, you are reading from something, so would you 
please place your position in writing and please get that to the 
Committee and give it to Ms. Craven? Can you do that, please?
  Ms.  McMartin.   I sure will.
  
  [A follow-up letter with their position appears on p. ]

  
  The  Chairman.   All right.  Thank you.
  Thank you very much for your testimony and participation and I will 
look back, look ahead, and we will see you in the spring.
  Thank you.  This hearing is now concluded.
  [The statement of Edmee J. Hills appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

  [The statement of Doris Neibart appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

  [The statement of Theodore Stroup, Jr. appears on p.  ]


  [Whereupon, at 1:38 p.m., the Committee was adjourned.]



                             APPENDIX


 <GRAPHICS NOT AVAILABLE IN TIFF FORMAT>






</pre></body></html>
